APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
August Term, 2019
(Submitted: October 23, 2019
Decided: December 23, 2019)
Docket No. 18-487-cv
________________________________
TIMOTHY D. LAURENT AND SMEETA SHARON, on behalf
of themselves and all others similarly situated,
Plaintiffs‐Appellants,
v.
PRICEWATERHOUSECOOPERS LLP,
THE RETIREMENT BENEFIT ACCUMULATION PLAN
FOR EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,
THE ADMINISTRATIVE COMMITTEE TO THE RETIREMENT
BENEFIT ACCUMULATION PLAN FOR EMPLOYEES OF
PRICEWATERHOUSECOOPERS LLP,
Defendants‐Appellees.
________________________________

*

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK
________________________________

*

The Clerk of the Court is respectfully directed to amend the
official caption to conform to the above.

2a
Before:
KATZMANN, Chief Judge, and CHIN and DRONEY,
Circuit Judges.
________________________________
Appeal from a judgment of the United States District Court for the Southern District of New York (Oetken, J.) dismissing plaintiffs-appellants’ claims alleging that the terms of their employee retirement benefits plan violated the Employment Retirement Income
Security Act, 29 U.S.C. § 1001 et seq. In a prior appeal, we affirmed the district court’s holding that the
plan violated the statute, and we remanded for the
district court to consider the appropriate relief. On
remand, however, defendants-appellees moved for
judgment on the pleadings pursuant to Federal Rule
of Civil Procedure 12(c), contending that the relief requested by plaintiffs-appellants -- reformation of the
plan and the recalculation of benefits in accordance
with the reformed plan -- was unavailable as a matter
of law. The district court agreed.
VACATED AND REMANDED.
_______________________
JULIA PENNY CLARK, Bredhoff & Kaiser, PLLC, Washington, DC (Eli Gottesdiener, Gottesdiener Law
Firm, PLLC, Brooklyn, New York, on the brief), for
Plaintiffs‐Appellants.
DANIEL J. THOMASCH (Richard W. Mark, Amer S. Ahmed, and Alejandro A. Herrera, on the brief), Gibson, Dunn & Crutcher LLP, New York, New York,
for Defendants‐Appellees.

3a
BRENDAN BALLARD, Trial Attorney (Kate O’Scannlain,
Solicitor of Labor, G. William Scott, Assistant Solicitor for Plan Benefits Security, and Thomas Tso,
Counsel for Appellate and Special Litigation, on
the brief), U.S. Department of Labor, Washington,
D.C., for Amicus Curiae U.S. Secretary of Labor.
Brian T. Burgess, William M. Jay, Jaime A. Santos,
James O. Fleckner, and Alison V. Douglass, Goodwin Procter LLP, Washington, D.C. and Boston,
Massachusetts, and Steven P. Lehotsky, U.S.
Chamber Litigation Center, Washington, D.C., for
Amicus Curiae Chamber of Commerce of the
United States of America, the American Benefits
Council, the Business Roundtable, and the ERISA
Industry Committee.
_______________________
CHIN, Circuit Judge:
Plaintiffs-appellants Timothy D. Laurent and
Smeeta Sharon (“Plaintiffs”), on behalf of themselves
and similarly situated former employees of defendantappellee PricewaterhouseCoopers LLP (“PwC”),
brought this action in 2006 alleging that their retirement plan -- the “Retirement Benefit Accumulation
Plan for Employees of PricewaterhouseCoopers LLP”
(the “Plan”) -- violated the Employee Retirement Income Security Act (“ERISA”), 29 U.S.C. § 1001 et seq.
In a series of decisions, three different district judges
(Mukasey, Daniels, and Oetken, JJ.) held that the
Plan violated ERISA. See Laurent v. PricewaterhouseCoopers LLP, 794 F.3d 272, 278 (2d Cir. 2015) (“Laurent V”). In 2015, on PwC’s interlocutory appeal, we
agreed, holding that “the [P]lan’s definition of ‘normal
retirement age’ as five years of service violates

4a
[ERISA] . . . because it bears no plausible relation to
‘normal retirement.’” Id. at 273. Because the district
court had not addressed “the appropriate relief” we remanded for “the district court to consider that question in the first instance.” Id. at 289.
On remand, however, PwC moved for judgment on
the pleadings, arguing that ERISA did not authorize
the relief sought by Plaintiffs -- reformation of the
Plan to bring it into compliance with ERISA and the
recalculation of benefits in accordance with the reformed Plan. The district court agreed, holding that
ERISA did not authorize the recalculation of benefits
in the circumstances here, and dismissed the Second
Amended Complaint (the “SAC”) with prejudice on
that basis, notwithstanding the violation of ERISA.
Plaintiffs appeal, contending that the district
court erred in granting PwC’s motion because ERISA
does in fact authorize the relief they sought. We
agree, and for the reasons detailed below, we
VACATE the judgment and REMAND for further pro1
ceedings consistent with this Opinion.
BACKGROUND
I.

The Plan

The Plan is a cash balance plan subject to regulation under both ERISA and the Internal Revenue
Code. In 1996, the Internal Revenue Service announced its position that where a cash balance plan
1

Plaintiffs also argue on appeal that the district court exceeded the scope of this Court’s mandate in reaching PwC’s argument that no relief was available under ERISA. Because we
hold that Plaintiffs prevail on the merits, we do not reach the
issue of the scope of the mandate.

5a
permits participants to take benefits before normal retirement age (“NRA”) in the form of a lump-sum and
promises future credits, the plan must: (1) project the
participant’s account balance out to the participant’s
NRA and add an amount reflecting the value of the
future interest credits that would have accrued had
the account balance remained in the plan until that
future date; and (2) discount that projected total back
to the distribution date using the plan’s discount rate,
as limited by a statutory maximum. I.R.S. Notice 968, 1996-1 C.B. 359. This calculation is known as the
whipsaw calculation. See Esden v. Bank of Bos., 229
F.3d 154, 159 (2d Cir. 2000); see also Laurent v. PricewaterhouseCoopers LLP, 448 F. Supp. 2d 537, 544
(S.D.N.Y. 2006) (“Laurent I”) (“It is the forward projecting and discounting back that accounts for the
2
whipsaw terminology.”). “‘[W]hipsaw payments’ . . .
guarantee that plan participants who take distributions in the form of a lump sum when they terminate
employment will receive the actuarial equivalent of
the value of their accounts at retirement.” Laurent V,
794 F.3d at 273.
The Plan provides that when a vested employee
leaves employment, she has the option of receiving
(1) an annuity commencing at NRA or (2) an immediate lump-sum payment. Id. at 275. The present value
of the lump-sum payment must be worth at least as
2

ERISA was amended in 2006 by the Pension Protection Act
of 2006, Pub. L. No. 109-280, § 701(a)(2), 120 Stat. 780 (2006)
(the “PPA”), which eliminated the whipsaw calculation requirement for participants in cash balance benefit plans who elect
lump-sum distributions. The parties agree, however, that the
PPA does not apply to this case because the conduct at issue predates the PPA.

6a
much as the value of the stream of income from the
annuity commencing at normal retirement age. Id.;
see Esden, 229 F.3d at 163. In other words, if a plan
offers participants a lump-sum distribution, it “cannot
deprive the participants of the value that would accrue if the participants waited and took their distributions as an annuity at normal retirement age.” Laurent V, 794 F.3d at 275. The whipsaw calculation is
used to determine the difference between the “value of
a cash balance plan account at any given time and the
value of the account as an annuity payable at [NRA].”
Id.
Here, as the district court and this Court have
held, the Plan violates ERISA in at least one respect.
It defines “Normal Retirement Age” as “[t]he earlier of
the date a Participant attains age 65 or completes five
(5) Years of Service.” J. App’x at 1028 (emphasis
added). As we concluded in Laurent V, ERISA does
not give an employer “boundless discretion” to set any
period of time as the NRA; rather, a plan’s NRA “must
have some reasonable relationship to the age at which
participants would normally retire.” 794 F.3d at 281.
We held that five years of service was not a “normal
retirement age.” Id. at 289.
Moreover, as PwC does not dispute for the purposes of this appeal, the Plan’s use of the 30-year
Treasury rate as the projection rate is improper because it understates future interest credits. See Laurent v. PricewaterhouseCoopers LLP, No. 06-CV-2280
(JPO), 2017 WL 3142067, at *4 & n.5 (S.D.N.Y. July
24, 2017) (“Laurent VI”); ERISA § 204(c)(3). Indeed,
the Internal Revenue Service concluded that the Plan
“credits the accounts using one interest rate structure” -- based on equity rates of return -- “and projects

7a
them to Normal Retirement Age using another” -- the
30-year Treasury rate. J. App’x at 1195.
II. Procedural History
This case has a long procedural history dating
back to 2006. Relevant here is that in 2013, PwC
moved to dismiss the SAC, arguing, inter alia, that the
Plan’s “five years of service” NRA was valid as a matter of law. In a decision issued August 8, 2013, the
district court rejected PwC’s argument and held that
the Plan’s NRA violated ERISA because “five years of
service” is not an “age” under ERISA. See Laurent v.
PriceWaterhouseCoopers LLP, 963 F. Supp. 2d 310,
321 (S.D.N.Y. 2013) (“Laurent IV”).
Following Laurent IV, PwC petitioned for interlocutory appeal and plaintiffs moved to certify the class.
On January 22, 2014, the district court certified Laurent IV for interlocutory appeal and on April 22, 2014,
this Court granted the petition. On June 26, 2014,
while the interlocutory appeal was pending, the district court granted Plaintiffs’ motion for class certification on the counts asserting “whipsaw” claims seeking lump-sum distributions equal to the annuity payable at NRA.
In an opinion issued on July 23, 2015, this Court
affirmed the district court’s order denying PwC’s motion to dismiss. See Laurent V, 794 F.3d at 273. Although we disagreed with the district court’s reasoning, we agreed that the Plan’s method of calculating
the NRA was unlawful because it “bears no plausible
relation to ‘normal retirement,’ and is therefore inconsistent with the plain meaning of the statute,” id., and
affirmed on that ground alone. We then remanded for

8a
the district court to determine the proper remedy. Id.
at 289. In a footnote, we also noted:
Since ERISA grants a private cause of action
to enforce, inter alia, the terms of the plan, 29
U.S.C. § 1132(a)(3), PwC may be compelled to
‘act in accordance with the documents and instruments governing the plan insofar as they
accord with the statute.’
Id. at 289 n.19 (quoting US Airways, Inc. v.
McCutchen, 569 U.S. 88, 100 (2013)).
On remand, following seven months of additional
discovery, PwC moved for judgment on the pleadings
pursuant to Federal Rule of Civil Procedure 12(c), arguing that Plaintiffs were not entitled to relief for
their ERISA claims. Plaintiffs opposed the motion as
untimely and a violation of the mandate rule, see, e.g.,
United States v. Ben Zvi, 242 F.3d 89, 95 (2d Cir.
2001), and cross-moved for summary judgment pursuant to Rule 56.
The district court granted PwC’s motion and denied Plaintiffs’ motion. Laurent VI, 2017 WL 3142067
at *1. The district court held that PwC’s motion was
not untimely and that its arguments had not been
waived, and it held further that the Supreme Court’s
holding in CIGNA Corp. v. Amara, 563 U.S. 421, 436
(2011) (“Amara III”), precluded it from reforming the
Plan under ERISA § 502(a)(1)(B). Laurent VI, 2017
WL 3142067 at *4-7. The district court also rejected
Plaintiffs’ argument that they could obtain an equitable remedy under § 502(a)(3). Laurent VI, 2017 WL
3142067 at *7-9.

9a
First, the district court concluded that there was
no breach of fiduciary duty because the Plan administrator was not acting in his fiduciary capacity when
he distributed benefits in accordance with the Plan.
Id. at *8. Second, the district court held that equitable
reformation of the Plan was not available here because there was no allegation of fraud or mutual mistake. Finally, the district court found unpersuasive
Plaintiffs’ “attempt to restyle” the requested relief as
seeking “an accounting for profit, surcharge, or unjust
enrichment, or a constructive trust.” Id. at *8-9. Because Plaintiffs’ requested remedy, in its view, was “at
bottom . . . a legal claim for money damages,” id. at *9,
the district court concluded that it was precluded under Mertens v. Hewitt Assocs., 508 U.S. 248, 256
(2002).
Plaintiffs subsequently moved for reconsideration, and then for clarification of the district court’s
order pursuant to Federal Rules of Civil Procedure
60(a) and (b). The district court denied both motions.
This appeal followed.
DISCUSSION
Plaintiffs argue on appeal that the following twostep procedure is a remedy authorized by ERISA:
1. An order . . . compelling Defendants to
bring the terms and administration of the
Plan into compliance with ERISA . . . ;
2. An order requiring Defendants to re-calculate the benefits accrued and/or due under
the terms of the Plan in accordance with the
requirements of ERISA, and for the Plan to
pay these amounts, plus interest, to or on behalf of all Class . . . members who received less

10a
in benefits or benefit accruals than the
amount to which they are entitled.
Appellant’s Br. at 9 (quoting Compl., Prayer for Relief
¶¶ E & F). Plaintiffs and the Secretary of Labor (the
“Secretary”), as amicus curiae, contend that both
Steps 1 and 2 are authorized by § 502(a)(1)(B) of
ERISA. In the alternative, they contend that Step 1
is authorized under § 502(a)(3) and that Step 2 is au3
thorized under § 502(a)(1)(B).
I.

Standard of Review

“We review a judgment under Federal Rule of
Civil Procedure 12(c) de novo,” accepting as true the
allegations of the nonmovant and drawing all reasonable inferences in its favor. Graziano v. Pataki, 689
F.3d 110, 114 (2d Cir. 2012). Where a judgment is
premised on a question of statutory interpretation, we
similarly review that interpretation de novo. City of
Syracuse v. Onondaga Cty., 464 F.3d 297, 310 (2d Cir.
2006).
3

PwC also contends that Plaintiffs forfeited this “two-step”
argument by failing to raise it below. But Plaintiffs did ask for
their two-step remedy, albeit in their reply in support of their
motion for summary judgment. The district court never reached
the argument not because it deemed it forfeited -- indeed it had
discretion to consider it, see Ruggiero v. Warner-Lambert Co., 424
F.3d 249, 252 (2d Cir. 2005) -- but because it determined PwC
was entitled to judgment on the pleadings and consequently did
not reach Plaintiffs’ request on the merits. In any event, we are
“not limited to the particular legal theories advanced by the parties but rather retain[] the independent power to identify and
apply the proper construction of governing law.” McDonald v.
Pension Plan of NYSA-ILA Pension Tr. Fund, 320 F.3d 151, 160
(2d Cir. 2003) (quoting Kamen v. Kemper Fin. Servs., 500 U.S.
90, 99 (1991)).

11a
II. ERISA’s Remedial Provisions
The civil enforcement provision of ERISA at issue
in this case provides, in relevant part:
(a) Persons empowered to bring a civil action
A civil action may be brought-(1) by a participant or beneficiary-(A) for the relief provided for in subsection (c) of this section, or
(B) to recover benefits due to him under the terms of his plan, to enforce his
rights under the terms of the plan, or to
clarify his rights to future benefits under
the terms of the plan;
(2) by the Secretary, or by a participant,
beneficiary or fiduciary for appropriate relief under section 1109 of this title;
(3) by a participant, beneficiary, or fiduciary (A) to enjoin any act or practice which
violates any provision of this subchapter or
the terms of the plan, or (B) to obtain other
appropriate equitable relief (i) to redress
such violations or (ii) to enforce any provisions of this subchapter or the terms of the
plan [] . . . .
29 U.S.C. § 1132(a) (emphasis added).
A. Section 502(a)(1)(B)
The Supreme Court considered the limits of
ERISA § 502(a)(1)(B) in Amara III. Amara III involved a pension plan for CIGNA employees that, although compliant with ERISA, differed from the summary plan description previously provided to the

12a
plan’s participants. 563 U.S. at 428. After holding
that the discrepancy violated ERISA’s notice requirements, the district court, relying on § 502(a)(1)(B), reformed CIGNA’s existing pension plan to match the
terms stated in the summary plan description. Id. at
434. CIGNA appealed and the Supreme Court vacated, holding that § 502(a)(1)(B) did not authorize
plan reformation in this context. Id. at 435-36. In
reaching its holding, the Supreme Court observed:
Where does § 502(a)(1)(B) grant a court the
power to change the terms of the plan as they
previously existed? The statutory language
speaks of ‘enforc[ing]’ the ‘terms of the plan,’
not of changing them. The provision allows a
court to look outside the plan’s written language in deciding what those terms are, i.e.,
what the language means. But we have found
nothing suggesting that the provision authorizes a court to alter those terms, at least not
in present circumstances, where that change,
akin to the reform of a contract, seems less
like the simple enforcement of a contract as
written and more like an equitable remedy.
Id. (citations and emphases omitted). Because modifying the CIGNA plan’s terms to match the summary
plan description went beyond “simple enforcement,”
the Court held it was not authorized by § 502(a)(1)(B).
Id. at 436.
Following Amara III, courts of appeals have construed § 502(a)(1)(B) as limited to authorizing the enforcement of pension plans as written. See Soehnlen
v. Fleet Owners Ins. Fund, 844 F.3d 576, 583 n.2 (6th
Cir. 2016); Singletary v. United Parcel Serv., Inc., 828

13a
F.3d 342, 349 (5th Cir. 2016); Pender v. Bank of America Corp., 788 F.3d 354, 362 (4th Cir. 2015). This
Court has done so as well in a non-precedential summary order. See Gill v. Bausch & Lomb Supplemental
Ret. Income Plan I, 594 F. App’x 696, 699 (2d Cir.
2014) (summary order) (“Amara [III] instructs a district court to limit itself to ‘the simple enforcement of
a contract as written.’”).
The Seventh Circuit, by contrast, has affirmed
two awards of whipsaw benefits under § 502(a) following Amara III. See Ruppert v. Alliant Energy Cash
Balance Pension Plan, 2010 WL 5464196 (W.D. Wis.
Dec. 29, 2010), aff’d, 726 F.3d 936 (7th Cir. 2013);
Thompson v. Ret. Plan for Emps. of S.C. Johnson &
Sons, Inc., 716 F. Supp. 2d 752 (E.D. Wis. 2010), aff’d
in relevant part, 651 F.3d 600 (7th Cir. 2011). Neither
affirmance, however, cites to Amara III and in both
cases, judgment had been entered in the plaintiffs’ favor in the district court before issuance of the Amara
III decision.
B. Section 502(a)(3)
ERISA § 502(a)(3) allows plan participants, beneficiaries, or fiduciaries to bring civil actions to enjoin
any act or practice that violates ERISA or to obtain
other “appropriate equitable relief” to redress the violation. 29 U.S.C. § 1132(a)(3); see Mertens, 508 U.S.
at 255. The Supreme Court has interpreted the term
“appropriate equitable relief” as referring to “categories of relief that, traditionally speaking (i.e., prior to
the merger of law and equity) were typically available
in equity.” Amara III, 563 U.S. at 439 (internal quotation marks omitted). Because “[a] claim for money
due and owing under a contract is quintessentially an

14a
action at law,” Great‐West Life & Annuity Ins. Co. v.
Knudson, 534 U.S. 204, 210 (2002) (internal quotation
marks omitted), money damage awards are not available under § 502(a)(3). See id.; Mertens, 508 U.S. at
255.
The Supreme Court also discussed § 502(a)(3) in
Amara III. After concluding that the relevant pension
plan could not be reformed under § 502(a)(1)(B), the
Supreme Court considered whether a remedy for the
Amara plaintiffs could instead be found in § 502(a)(3).
563 U.S. at 438. There, the plaintiffs had argued that
reformation was available as an equitable remedy for
fraud. The issue was whether this remedy required a
showing of detrimental reliance. In holding it did not,
the Court hinted that courts should construe remedies
in equity available under § 502(a)(3) broadly, stating:
we conclude that the standard of prejudice
must be borrowed from equitable principles,
as modified by the obligations and injuries
identified by ERISA itself. Information-related circumstances, violations, and injuries
are potentially too various in nature to insist
that harm must always meet that more vigorous “detrimental harm” standard when equity
imposed no such strict requirement.
Id. at 444-45 (emphasis added).
C. Application
Although we have previously affirmed the entry of
a two‐step reformation and enforcement remedy under ERISA, see Amara v. CIGNA Corp., 775 F.3d 510,
532 (2d Cir. 2014) (“Amara V”), we have not yet had
occasion to consider the availability of reformation to
plaintiffs in circumstances such as these, where the

15a
written terms of a pension plan indisputably violate
ERISA, but there is no allegation that the violation
stems from traditional fraud, mistake, or otherwise
inequitable conduct. We nonetheless conclude that
reformation of the Plan was available here under
ERISA § 502(a)(3), and that, consistent with our precedent, the district court was then authorized to enforce the reformed Plan as a second step under
§ 502(a)(1)(B).
1. Reformation under § 502(a)(3)
ERISA authorizes reformation of the Plan because, by its plain language, § 502(a)(3) authorizes
participants and beneficiaries to “obtain . . . equitable
relief (i) to redress such violations or (ii) to enforce any
provisions of this subchapter or the terms of the plan.”
29 U.S.C. § 1132(a)(3). Here, because reformation is
an equitable remedy and the Plan violated a “provision[] of [the] subchapter” -- specifically, ERISA
§ 3(24) -- we conclude that § 502(a)(3) authorizes the
district court to reform the Plan. Id.
The district court reached a contrary conclusion
because it interpreted Mertens and its progeny as limiting the availability of equitable remedies under
§ 502(a)(3) to the specific circumstances under which
those remedies were typically available in equity
courts. Laurent VI, 2017 WL 3142067, at *8 (“Plaintiffs do not allege mistake, fraud, or inequitable conduct here. . . . Plaintiffs are therefore not entitled to
relief in the form of judicial reformation under ERISA

16a
4

§ 502(a)(3).”). But neither the statute nor Mertens
imposes this added requirement. Instead, § 502(a)(3)
tells us that equitable remedies are available to “redress violations of” or “to enforce any provisions of”
ERISA subchapter I. And Mertens holds only that
remedies under § 502(a)(3) are limited to “those categories of relief that were typically available in equity
(such as injunction, mandamus, and restitution, but
not compensatory damages).” 508 U.S. at 256. Reformation is indisputably a typical and traditional form
of equitable relief, see Simmons Creek Coal Co. v.
Doran, 142 U.S. 417, 435 (1892); see also Amara III,
563 U.S. at 440 (“The power to reform contracts . . . is
a traditional power of an equity court”), and is thus
categorically available to a participant or beneficiary
to enforce violated provisions of ERISA.
Even were we to find ambiguity in the statute, our
holding finds further support in the body of law that
has developed around ERISA in this context. The Supreme Court has instructed that when construing a
remedy in equity under ERISA § 502(a)(3), courts are
to be guided by “equitable principles, as modified by
the obligations and injuries identified by ERISA itself.” Amara III, 563 U.S. at 445. Admittedly, the
Amara III Court’s discussion of § 502(a)(3) is arguably
dicta, see id. at 442 (noting that the Court “need not
4

In finding that violations of subchapter I of ERISA themselves form the basis for a district court to enter equitable remedies under § 502(a)(3), we do not hold that the violation here
could not, in itself, be construed as a form of fraud or mistake
sufficient to warrant reformation. Moreover, while we do not
need to reach the issue, here PwC arguably engaged in inequitable conduct -- deciding to use an unreasonable definition of NRA
and applying two different interest rates in an unfair manner.

17a
decide which remedies [were] appropriate . . . to resolve the parties’ dispute”). But our own precedent too
has identified “fraud, mutual mistake, or terms violative of ERISA” as independent bases that justify the
equitable remedy of reformation under § 502(a)(3).
Nechis v. Oxford Health Plans, Inc., 421 F.3d 96, 103
(2d Cir. 2005) (emphasis added).
Moreover, the outcome advocated by PwC (and the
Chamber of Commerce and other amici curiae) -- that
even where employees prove an ERISA violation, they
have no remedy -- is inconsistent with the “maxim of
equity . . . that ‘[e]quity suffers not a right to be without a remedy.’” Amara III, 563 U.S. at 440 (quoting
R. Francis, Maxims of Equity 29 (1st Am. ed. 1823)).
And the Supreme Court has expressly identified
§ 502(a)(3) as occupying a special “catchall” remedial
role in ERISA’s statutory scheme, Varity Corp. v.
Howe, 516 U.S. 489, 512 (1996), particularly in instances where other remedies for violations of the
statute may be unavailable. See id. at 515 (“[Plaintiffs] must rely on the third subsection or they have no
remedy at all. We are not aware of any ERISA‐related
purpose that denial of a remedy would serve. Rather,
we believe that granting a remedy is consistent with
the literal language of the statute, the Act’s purposes,
and pre‐existing trust law.”).
We hold that § 502(a)(3) authorizes district courts
to grant equitable relief -- including reformation -- to
remedy violations of subsection I of ERISA, even in
the absence of mistake, fraud, or other conduct traditionally considered to be inequitable.

18a
2. Enforcement under § 502(a)(1)(B)
After concluding that reformation of the Plan is
available to Plaintiffs under § 502(a)(3), we have little
trouble holding that the district court’s authority to
grant Step 2 of Plaintiffs’ proposed remedy -- enforcement of the reformed Plan under § 502(a)(1)(B) -- follows. As the Supreme Court noted in Amara III, “equity often considered reformation a ‘preparatory step’
that ‘establishes the real contract.’” 563 U.S. at 441
(quoting 4 Pomery, Equity Jurisprudence § 1375, at
999). And indeed, we have already expressly affirmed
a two‐step remedy of reformation‐and‐enforcement in
the post‐Amara III, ERISA context. See Amara V, 775
F.3d at 532.
PwC does not quarrel with our view that
§ 502(a)(3) is the proper vehicle for enforcing violations of ERISA subsection I, or that enforcement of a
5
pension plan is authorized by § 502(a)(1)(B). But
PwC does dispute our authority under ERISA to enter
Plaintiffs’ two‐step remedy more generally, arguing
that at least one circuit has rejected this approach.
See Eichorn v. AT&T Corp., 484 F.3d 644, 654‐57 (3d
Cir. 2007). To the extent that it is so, however, Eichorn pre‐dates Amara III and contradicts our own
precedent. And while PwC points to controlling cases
that limit the remedies available under both
5

To the contrary, PwC has explicitly pointed to § 502(a)(3) as
the provision upon which current Plan participants may properly
rely to sue for violations of the statute. See Appellee’s Br. at 26;
see also Tr. Oral Arg., J. App’x at 613 (“Can you sue to seek an
injunction or reform it if you were in the plan and you said I don’t
like the way this plan is set up, I don’t think it’s legal. I want to
go in. [Section] 502(a)(3) gives you a vehicle to do that.”).

19a
§ 502(a)(3) and § 502(a)(1)(B) independently, it is notable that none of those cases considers the two provisions simultaneously. See, e.g., Mertens, 508 U.S. at
256-58; Great-West, 534 U.S. at 209-19. In the absence of controlling authority otherwise, we are inclined to follow the Supreme Court’s express preference that violations of ERISA should be remedied. See
Varity Corp., 516 U.S. at 515; accord Esden, 229 F.3d
at 177 (“Under ERISA, to correct this lack of safeguards, Congress created substantive rights for pension plan participants and expressly created private
causes of action in federal court to vindicate those
rights.”).
As we have concluded that ERISA authorizes, in
the circumstances here, the two-step remedy of reformation under § 502(a)(3) and enforcement under
§ 502(a)(1)(B), we do not address Plaintiffs’ alternative arguments for relief. Nor do we address the nature of any reformation and consequent relief to which
Plaintiffs may be entitled, whether on their motion for
summary judgment or otherwise, leaving those questions to be resolved by the district court in the first
instance.
CONCLUSION
For the reasons set forth above, the judgment of
the district court is VACATED and the case is
REMANDED for further proceedings consistent with
this Opinion.

20a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
TIMOTHY LAURENT, et al.,
Plaintiffs,
-vPRICEWATERHOUSECOOPERS
LLP, et al.,

06-CV-2280
(JPO)
OPINION AND
ORDER

Defendants.
J. PAUL OETKEN, District Judge:
This action is brought by Plaintiffs Timothy Laurent and Smeeta Sharon, on behalf of themselves and
all others similarly situated, against Defendants
PricewaterhouseCoopers LLP, the Retirement Benefit
Accumulation Plan for Employees of PricewaterhouseCoopers LLP, and the Administrative Committee to the Retirement Benefit Accumulation Plan for
Employees of PricewaterhouseCoopers LLP (collectively, “PwC”) under the Employee Retirement Income Security Act of 1974 (“ERISA”), 29 U.S.C.
§ 1001, et. seq. PwC moves for judgment on the pleadings pursuant to Federal Rule of Civil Procedure 12(c),
asking the Court to dismiss Plaintiffs’ claims with
prejudice. (Dkt. No. 209.) Plaintiffs move for summary judgment pursuant to Federal Rule of Civil Procedure 56. (Dkt. No. 216.) The Court held oral argument on May 23, 2017. (Dkt. No. 233.) For the reasons that follow, PwC’s motion is granted and Plaintiffs’ motion is denied.

21a
I.

Motion for Judgment on the Pleadings
1

A. Background

The following facts are taken from the SAC and
2
(Dkt. No. 133
documents incorporated therein.
(“SAC”).)
At issue in this action are terms of the Retirement
Benefit Accumulation Plan for Employees of PwC.
(Dkt. No. 210-3 to -10 (“RBAP” or “Plan”); see SAC
¶ 23 n.2 (incorporating the Plan by reference).) Plaintiffs are former employees of PricewaterhouseCoopers
LLP who elected a distribution of the fully vested benefits under the RBAP’s lump-sum option. (SAC ¶¶ 2021, 32, 34.) The RBAP provides a lump-sum distribution option for departing participants who have at3
tained the Plans’ “Normal Retirement Age.” (RBAP
1

The Court provides a brief overview of certain background
information relevant to the current motions. Additional background is provided in the prior opinions in this case. See Laurent
v. PriceWaterhouseCoopers LLP, 963 F. Supp. 2d 310 (S.D.N.Y.
2013), aff’d, 794 F.3d 272 (2d Cir. 2015), cert. denied, 136 S. Ct.
981 (2016); Laurent v. PricewaterhouseCoopers LLP, 448 F.
Supp. 2d 537 (S.D.N.Y. 2006) (Mukasey, J.).
2

“In considering a Rule 12(c) motion, ‘a district court may
consider the facts alleged in the complaint, documents attached
to the complaint as exhibits, and documents incorporated by reference in the complaint.’” Biro v. Conde Nast, No. 11 Civ. 4442,
2014 WL 4851901, at *1 n.1 (S.D.N.Y. Sept. 30, 2014) (quoting
DiFolco v. MSNBC Cable L.L.C., 622 F.3d 104, 111 (2d Cir.
2010)).
3

The Plan’s definition of “Normal Retirement Age” was the
subject of previous rulings by this Court and the Second Circuit.
The RBAP defines “Normal Retirement Age” as “[t]he earlier of
the date a Participant attains age 65 or completes five (5) Years
of Service.” (RBAP § 2.32.) This Court held that the “five (5)

22a
§ 5.4(a).) Under the RBAP, “[t]he amount of any lump
sum payment . . . shall not be less than the Actuarial
Equivalent of the Participant’s Normal Retirement
Benefit.” (Id. § 5.4(b).) The “Normal Retirement Benefit” is “calculated by projecting the Deemed Account
Balance to Normal Retirement Age using the Deemed
Plan Interest Rate.” (Id. § 5.1.) The “Deemed Plan
Interest Rate” is the annual rate of interest equal to
the interest rate on 30-year Treasury securities, as
specified by the IRS for the month of February (or before July 1, 2001, the month of May) immediately preceding the “Plan Year” in which the calculation is
made. (Id. § 2.16; see id. § 2.37 (defining “Plan Year”
as “[t]he twelve (12) consecutive month period commencing each July 1 and ending the immediately following June 30”).)
Plaintiffs allege that the 30-year Treasury rate
“was not an appropriate predictor of future investment crediting rates under the RBAP.” (SAC ¶ 90.)
The problem with using the 30-year Treasury rate, according to Plaintiffs, is that it “undervalued” the “future interest credits” promised by the Plan, which unlawfully forced participants who opted to receive their
benefits in the form of a lump sum to forfeit a portion
of their return. (Id. ¶¶ 97-98.)
On June 26, 2014, this Court granted Plaintiffs’
motion for class certification as to Count One and
Count Five of the SAC. (Dkt. No. 175.) Both counts
assert so-called “whipsaw” claims seeking lump-sum
Years of Service” component of this definition was invalid under
ERISA. See Laurent, 963 F. Supp. 2d at 319-22. The Second
Circuit affirmed, albeit on somewhat different grounds. See Laurent, 794 F.3d at 285.

23a
distributions equal to the annuity payable at normal
4
retirement age. (SAC ¶¶ 113-118, 129-133.) See Laurent, 794 F.3d at 275 (describing the “whipsaw” calculation at issue). Count One, in relevant part, alleges
that PwC’s “lump sum calculation methodology,”
which used the 30-year Treasury rate specified in the
Plan, “result[ed] in an unlawful forfeiture of accrued
benefits” in violation of ERISA and the Internal Revenue Code. (SAC ¶ 117.) Plaintiffs have acknowledged that Count Five is pleaded in the alternative
and seeks similar relief—albeit under a slightly different theory. (Dkt. No. 162 at 8.)
Here, Plaintiffs seek relief under both Counts One
and Five in the form of three declarations from the
Court:
1. A declaration that the lawful “normal
retirement age” under the RBAP for
purposes of calculating lump sum benefits is not “5 years of service” but age
65.

4

Until 2006, under ERISA, plans that offered participants
lump-sum distributions could not “deprive the participants of the
value that would accrue if the participants waited and took their
distributions as an annuity at normal retirement age.” Laurent,
794 F.3d at 275. In other words, plans were required to take the
employee’s account balance, increase it “by the plan’s interest
rate multiplied by the time to normal retirement age,” and then
discount that total “back to present value at a set rate.” Id. This
is known as the “whipsaw calculation.” Id. These mandatory
payments were eliminated in 2006―after this case was filed and
after the distributions at issue were made―when Congress
passed the Pension Protection Act of 2006, 120 Stat. 780 (2006);
the parties agree that the Pension Protection Act does not apply
to this case. Laurent, 794 F.3d at 276.

24a
2. “[A] declaration that [the RBAP’s]
method of computing the lump sums to
which withdrawing employees are entitled is unlawful,” Berger v. Xerox, 338
F.3d 755, 763 (7th Cir. 2003).
3. A declaration that members of the
Class remain entitled to benefits under
the Plan attributable to the investment credits that would have been
credited between the date of their
lump sum distributions and age 65, using the rate that the Court determines
would have been “the most reasonable
projection rate” to estimate the
amount of those future credits at the
time of the lump sum payments, Ruppert v. Alliant Energy Cash Balance
Pension Plan, [726 F.3d 936, 939 (7th
Cir. 2013).]
(Dkt. No. 162 at 2-3 (alterations in original) (citing
SAC ¶¶ 115-118, 133, 144, Prayer for Relief ¶ F).)
In their motion for judgment on the pleadings, Defendants argue that Plaintiffs do not have an avenue
for relief under ERISA. (See Dkt. No. 209.) Specifically, Defendants argue that nothing in ERISA enables this Court to issue a declaration that invalidates
the Plan’s projection rate and replaces it with a new
projection rate that complies with ERISA’s valuation
requirements. (Dkt. No. 210 at 2.)
B. Legal Standard
Under Rule 12(c), “a party is entitled to judgment
on the pleadings ‘only if it has established that no material issue of fact remains to be resolved and that [it]

25a
is entitled to judgment as a matter of law.’” Zurich
Ins. Co. v. Crowley Latin Am. Servs., LLC, No. 16 Civ.
1861, 2016 WL 7377047, at *2 (S.D.N.Y. Dec. 20,
2016) (alteration in original) (quoting Bailey v. Pataki,
No. 08 Civ. 8563, 2010 WL 234995, at *1 (S.D.N.Y.
Jan. 19, 2010)). “The standard for granting a Rule
12(c) motion for judgment on the pleadings is identical
to that of a Rule 12(b)(6) motion for failure to state a
claim.” Citibank, N.A. v. Tormar Assocs. LLC, No. 15
Civ. 1932, 2015 WL 7288652, at *3 (S.D.N.Y. Nov. 17,
2015) (quoting Gioconda Law Grp. PLLC v. Kenzie,
941 F. Supp. 2d 424, 427 (S.D.N.Y. 2013)) (internal
quotation marks omitted). “In both postures, the district court must accept all allegations in the non-movant’s pleadings as true and draw all inferences in
[that party’s] favor.” Id. (alteration in original) (quoting Gioconda Law Grp. PLLC, 941 F. Supp. 2d at 427)
(internal quotation marks omitted).
C. Discussion
In order to maintain an action under ERISA, “a
plaintiff must both ‘assert a constitutionally sufficient
injury arising from the breach of a statutorily imposed
duty’ and ‘identify a statutory endorsement of the action.’” Am. Psychiatric Ass’n v. Anthem Health Plans,
Inc., 821 F.3d 352, 359 (2d Cir. 2016) (quoting Kendall
v. Emps. Ret. Plan of Avon Prods., 561 F.3d 112, 118
(2d Cir. 2009)). Because “ERISA is a ‘comprehensive
and reticulated statute, the product of a decade of congressional study of the Nation’s private employee benefit system,’” Great-W. Life & Annuity Ins. Co. v.
Knudson, 534 U.S. 204, 209 (2002) (quoting Mertens
v. Hewitt Associates, 508 U.S. 248, 251 (1993)) (internal quotation marks omitted), courts are “especially
‘reluctant to tamper with [the] enforcement scheme’

26a
embodied in the statute by extending remedies not
specifically authorized by its text,” id. (alteration in
original) (quoting Mass. Mut. Life Ins. Co. v. Russell,
473 U.S. 134, 147 (1985)). “ERISA’s ‘carefully crafted
and detailed enforcement scheme provides strong evidence that Congress did not intend to authorize other
remedies that it simply forgot to incorporate expressly.’” Id. (quoting Mertens, 508 U.S. at 251).
In the SAC, Plaintiffs point generally to ERISA
§ 502(a) as the provision under which all relief may be
granted. (SAC at 41.) In Plaintiffs’ motion for class
certification, they specifically identified ERISA
§ 502(a)(1)(B) as the particular provision under which
they move for relief. (Dkt. No. 162 at 2.) Now, in their
opposition to PwC’s motion for judgment on the pleadings, Plaintiffs also propose ERISA § 502(a)(3) as an
alternative ground for relief. (See Dkt. No. 212 at 1820.)
The Court addresses (1) whether PwC’s motion is
untimely or procedurally improper; (2) whether controlling authority permits Plaintiffs’ claims under
ERISA § 502(a)(1)(B); and (3) whether ERISA
§ 502(a)(3) provides an alternative path to relief.
1. Timeliness and Propriety
Plaintiffs contend that PwC’s motion for judgment
on the pleadings (1) “is untimely in the extreme”; (2)
was previously rejected by this Court in its decision on
the motion for class certification (see Dkt. No. 175);
and (3) conflicts with the Second Circuit’s decision in
Laurent, 794 F.3d at 289. (See Dkt. No. 212 at 2-3.)
Rule 12(c) provides the standard for determining
whether a motion for judgment on the pleadings is
timely. It states that “[a]fter the pleadings are

27a
closed—but early enough not to delay trial—a party
may move for judgment on the pleadings.” Fed. R.
Civ. P. 12(c). It is true that this case is over a decade
old, and PwC could have raised this argument years
earlier than it did. Instead it chose to focus on a different set of arguments at the motion-to-dismiss
stage. But there was no waiver or forfeiture by PwC.
Rule 12(c) focuses on “delay [of] trial.” Where, as here,
the pleadings are closed but the parties have not
started expert discovery and no trial date has been
set, PwC’s motion is not untimely. See Vail v. City of
N.Y., 68 F. Supp. 3d 412, 422-23 (S.D.N.Y. 2014) (collecting cases).
Second, PwC made a similar argument to that advanced here in opposition to Plaintiffs’ Motion for
Class Certification. (See Dkt. No. 168 at 4.) However,
in deciding that motion, the Court nowhere addressed
whether ERISA endorses the relief sought by Plaintiffs, which is addressed here for the first time. (See
Dkt. No. 175 at 3 (“Plaintiffs and Defendants continue
to dispute whether RBAP’s NRA is valid under ERISA
and, if it is not, how to remedy the problem. But the
scope of their dispute with respect to class certification is considerably narrower.”).) Accordingly, this
Court has not previously rejected PwC’s arguments.
Finally, the Second Circuit’s prior opinion in this
case concerned the legality of the Plan’s five-years-ofservice “normal retirement age” provision. See Laurent, 794 F.3d at 289. The Second Circuit expressly
left “to the district court” the task of considering the
“appropriate relief,” which is the subject of the instant
dispute. Id. And even if the Second Circuit’s decision
could be read as assuming that some relief would be
appropriate, it made no such holding.

28a
The Court thus concludes that Defendants’ motion
for judgment on the pleadings is timely and properly
made.
2. ERISA § 502(a)(1)(B)
Under ERISA § 502(a)(1)(B), “[a] civil action may
be brought by a participant or a beneficiary . . . to recover benefits due to him under the terms of his plan,
to enforce his rights under the terms of the plan, or to
clarify his rights to future benefits under the terms of
the plan.” ERISA § 502(a)(1)(B) (emphases added).
Plaintiffs argue that ERISA § 502(a)(1)(B) is the
proper section under which to assert their whipsaw
claims. (See Dkt. No. 212 at 8-18.)
The Supreme Court has made clear that courts
may invoke ERISA § 502(a)(1)(B) only to enforce the
terms of the Plan, “as written.” CIGNA Corp. v.
Amara, 563 U.S. 421, 436 (2011). In Amara, the Court
considered both ERISA § 502(a)(1)(B) and ERISA
§ 502(a)(3). See id. at 425. Amara was not a whipsaw
case; rather, it involved allegations that an ERISA
plan administrator provided inaccurate “summary
plan descriptions,” which misled plan participants.
Id. at 428-31.
Finding authority in ERISA
§ 502(a)(1)(B), the district court had ordered the terms
of the plan reformed and enforced, in order to remedy
the false or misleading information provided by the
plan administrator. Id. at 425, 433-34; see also Amara
v. CIGNA Corp., 348 F. App’x 627 (2d Cir. 2009) (affirming the district court’s judgment).
On review, the Supreme Court held that reformation of plan terms is not a remedy available under
ERISA § 502(a)(1)(B). Amara, 563 U.S. at 436 (“The
statutory language speaks of ‘enforc[ing]’ the ‘terms of

29a
the plan,’ not of changing them.” (alteration in original) (quoting 29 U.S.C. § 1132(a)(1)(B))). While
ERISA § 502(a)(1)(B) “allows a court to look outside
the plan’s written language in deciding what [a]
term[] [is], i.e., what the language means,” it does not
“authorize[] a court to alter [that] term[].” Id.
Plaintiffs in this case, invoking ERISA
§ 502(a)(1)(B), ask the Court to strike the Plan’s projection rate—the 30-year Treasury rate—and replace
it with the “rate that the Court determines would
have been ‘the most reasonable projection rate’ to estimate” future investment credits under the Plan.
(Dkt. No. 162 at 3 (quoting Ruppert, 726 F.3d at 939).)
The crux of the disagreement between the parties
here is whether, after the Supreme Court’s 2011 decision in Amara, this Court is permitted to afford the
relief sought by Plaintiffs
PwC does not dispute, for the purposes of this mo5
tion, that the 30-year Treasury rate is improper. (See

5

Plaintiffs argue that the 30-year Treasury projection rate
contained in the Plan is illegal in light of a 2014 IRS Technical
Advice Memorandum (“IRS TAM”), which explains that “the balance in the cash balance account must be projected with interest
credits to [Normal Retirement Age],” and this projection must
use “the same interest rate used to provide interest credits to the
cash balance account.” (Dkt. No. 212 at 12.) In other words,
Plaintiffs argue that it is illegal to credit accounts using one rate
structure while Participants are working, but to project the estimated future value of the accounts at retirement age when an
early lump sum is taken using a different (and lower) rate structure—here, the 30-year Treasury rate. This is the essence of an
ERISA “whipsaw” claim. See Laurent, 794 F.3d at 275–76; Ruppert, 726 F.3d at 939.

30a
Dkt. No. 211 at 19; Transcript of Oral Argument, May
23, 2017 at 21.)
However, PwC does dispute Plaintiffs’ request for
a replacement rate. According to Plaintiffs, RBAP
§ 2.14 defines the correct interest-crediting rate,
which is determined by “an algorithm that defines a
variable rate based on the performance of the funds
offered under the Plan’s hypothetical investment
menu.” (Dkt. No. 212 at 12.) Plaintiffs argue that the
correct projection rate is equal to the average actual
interest credit over a number of prior periods and ask
to the Court to supply this rate to replace the 30-year
Treasury rate. (Id. at 12-13 (citing Esden v. Bank of
Boston, 229 F.3d 154, 166 n.17, 177 (2d Cir. 2000)).)
PwC, however, argues that such relief would amount
to reformation rather than interpretation of the Plan,
which, they argue, is not authorized under ERISA
§ 502(a)(1)(B), as clarified by the Supreme Court in
Amara.
Plaintiffs rely primarily on pre-Amara cases to
support their contention that, under ERISA
§ 502(a)(1)(B), this Court can strike the Treasury rate
from the Plan and replace it with a new rate. (See
Dkt. No. 212 at 9-13 (citing West v. AK Steel Corp., 484
F.3d 395 (6th Cir. 2007); Berger, 338 F.3d 755; Esden,
229 F.3d 154.) Plaintiffs chiefly rely on May Department Stores Co. v. Federal Insurance Co., 305 F.3d 597
(7th Cir. 2002), and UNUM Life Insurance Co. of
America v. Ward, 526 U.S. 358 (1999), two cases discussing the scope of permissible interpretation under
ERISA § 502(a)(1)(B). (See Dkt. No. 212 at 7-8, 15-16.)
In May Department Stores, decided almost a decade
before Amara, the Seventh Circuit held that, “like
many other contracts, pension plans governed by

31a
ERISA contain provisions implied by law.” 305 F.3d
at 601. Relying on May Department Stores, Plaintiffs
argue that, if they are correct that the 30-year Treasury rate violates ERISA, then “fleshing out the specifics of the RBAP’s implied-by-law projection rate is not
‘changing’ the Plan’s terms: it is resolving an ambiguity” by interpreting it to reflect a provision implied by
law. (Dkt. No. 212 at 14.)
Plaintiffs also rely heavily on UNUM, pointing
particularly to the Supreme Court’s citation of UNUM
in Amara. (Id. at 15-16.) UNUM involved a suit
brought under ERISA § 502(a)(1)(B) to recover disability benefits under an ERISA-governed insurance
policy in California, which an insurance company had
denied as untimely under the terms of the plan at issue. UNUM, 526 U.S. at 364-65, 377. However, under
California’s “notice-prejudice” rule, an insurer denying a claim as untimely must also “prove that it suffered substantial prejudice” before denying a claim.
Id. at 366-67 (quoting Shell Oil Co. v. Winterthur
Swiss Ins. Co., 15 Cal. Rptr. 2d 815, 845 (1st Dist.
1993)). ERISA preempted the state’s notice-prejudice
rule as a state law that “relate[s] to” an employee benefit plan, ERISA § 514(a); unless, as disputed by the
parties, the rule “regulat[ed] insurance” and thus escaped preemption under the saving clause, ERISA
§ 514(b)(2)(A). Id. at 367. The Supreme Court held
that California’s notice-prejudice rule applied as it
regulated insurance and was, therefore, not
preempted by ERISA. Id. at 379.
The effect of the Court’s decision in UNUM, then,
was to incorporate California’s notice-prejudice rule
into the terms of the plan. In Amara, the Court again
confirmed that § 502(a)(1)(B), “allows a court to look

32a
outside the plan’s written language in deciding what
those terms are, i.e., what the language means.”
Amara, 563 U.S. at 436. In support of this proposition, the Amara Court relied on UNUM and described
UNUM (parenthetically) as “permitting the insurance
terms of an ERISA-governed plan to be interpreted in
light of state insurance rules.” Id. (emphasis added).
Plaintiffs here rely on the Amara Court’s discussion of UNUM to argue “that § 502(a)(1)(B) remains
the proper path for enforcement of claims like the one
here that are more ‘like the simple enforcement of a
contract as written.’” (Dkt. No. 212 at 16 (quoting
Amara, 563 U.S. at 436).) Plaintiffs thus argue that
this Court should conceptualize the striking and replacing of the 30-year Treasury rate with a rate determined by an algorithm as a “straightforward contract
interpretative exercise.” (Dkt. No. 212 at 12.)
Thus, this Court must determine whether the relief sought by Plaintiffs amounts to “interpret[ation]”
of plan terms, as in UNUM (as described in Amara) —
which is allowed under ERISA § 502(a)(1)(B)—or
reformation—which, the Amara Court held, is not.
See Amara, 563 U.S. at 436.
A “request for reformation is . . . a request that the
court alter the words of the document. [A] party who
seeks interpretation asks the court not to change the
actual words of the document but to determine the
meaning of those words.” 5 Corbin on Contracts
§ 24.18. Here, Plaintiffs’ requested relief—the striking out of the 30-year Treasury rate and its replacement with a different rate—amounts to a “change[]
akin to the reform of a contract” rather than “the simple enforcement of a contract as written.” Amara, 563

33a
U.S. at 436. This relief goes further than the reading
of a state-law notice requirement into a plan, as in
UNUM, and would require the Court to fully replace
a term of the plan. Plaintiffs would require the Court
to reform the plan by changing its actual words, rather
than determining the meaning of those words.
After Amara, courts have consistently refused to
allow similar relief under ERISA § 502(a)(1)(B), at
least when the issue is presented. In Pender v. Bank
of America Corp., 788 F.3d 354 (4th Cir. 2015), for example, the Fourth Circuit applied Amara to reject an
ERISA § 502(a)(1)(B) claim where “the plaintiffs
sought to enforce the plan not as written, but as it
should properly be enforced under ERISA.” Id. at 362.
The plaintiffs in Pender argued that a bank violated
ERISA when it “misapplied [a] formula” by failing to
modify that formula with ERISA-mandated terms.
Id. at 361 (citation omitted) (internal quotation marks
omitted). The Fourth Circuit held that Amara “explicitly precludes” plaintiffs from using § 502(a)(1)(B) because the remedy required more than enforcement of
plan terms—it required the court to reform the terms
of the plan. Id. at 362-63. Though the Second Circuit
has not addressed the issue, several other Courts of
Appeals have reached conclusions similar to that
reached by the Fourth Circuit in Pender.
See
Soehnlen v. Fleet Owners Ins. Fund, 844 F.3d 576, 583
n.2 (6th Cir. 2016) (“By arguing that the terms of the
Plan do not comply with the law, Plaintiffs tacitly concede that the relief they seek exists outside the scope
of their plan. And an action attempting to re-write the
terms
of
a
plan
is
unavailable
under
§ [502](a)(1)(B).”); Singletary v. United Parcel Serv.,
Inc., 828 F.3d 342, 349 (5th Cir. 2016) (applying the

34a
Eighth Circuit’s distinction between claims for benefits under a plan as written and claims for equitable
relief, where only the latter authorizes a plaintiff to
“seek[] to reform the Plan by obtaining a declaration
that the purported [Plan provisions] are void”) (second
alteration in original) (quoting Ross v. Rail Car Am.
Grp. Disability Income Plan, 285 F.3d 735, 740 (8th
Cir. 2002)).
To be sure, the Seventh Circuit has affirmed an
award of relief under § 502(a)(1)(B), post-Amara, in a
whipsaw case, thus effectively allowing exactly the
type of reliefs sought by Plaintiffs here. Ruppert, 726
F.3d 936. However, the issue of whether Amara allows such relief under that provision was not raised in
the case, and the court did not address it. It therefore
does not serve as precedent for Plaintiffs’ position on
the issue.
Plaintiffs also argue, with some force, that the Supreme Court’s decision in Amara should not be viewed
as having so easily discarded a long line of cases, including whipsaw cases, that authorized claims for
reformation-type relief under § 502(a)(1)(B). This is
akin to the argument in the context of statutory interpretation that Congress “does not . . . hide elephants
in mouseholes,” Whitman v. Am. Trucking Ass’ns, 531
U.S. 457, 468 (2001)―the point being that such a major change should not be lightly inferred without evidence of a concomitant awareness of its gravity on the
part of the Congress (or, here, the Court). It is not at
all clear, however, that the elephants-in-mouseholes
principle should apply at all to opinions of the Supreme Court, which elucidate the meaning of the law
through their own language. In any event, this argument does not carry the day here for two reasons.

35a
First, the Supreme Court’s holding in Amara was not
offhand dicta; it was a carefully reasoned, unequivocal
holding in the case. And second, its holding was based
on statutory language that the Court concluded was
itself clear and unambiguous.
Finally, at oral argument, Plaintiffs argued that,
under US Airways, Inc. v. McCutchen, 133 S. Ct. 1537
(2013), the Court should view the illegal plan term as
void and look outside the Plan to fill the resulting gap.
However, while the words of a plan may leave gaps,
they also “may speak clearly.” Id. at 1549. The Supreme Court in McCutchen endorsed “‘look[ing] outside the plan’s written language’ to decide what an
agreement means” so as not to “frustrate the parties’
intent and produce perverse consequences.” Id. (quoting Amara, 563 U.S. at 436). Here, the intent of the
parties is not in question and the terms of the Plan
speak clearly. The relief requested by Plaintiffs is
reformation—not interpretation and not gap-filling—
and requires more than the simple enforcement of the
terms of the Plan as written.
Accordingly, Section 502(a)(1)(B) provides no avenue for relief.
3. ERISA § 502(a)(3)
Plaintiffs contend that ERISA § 502(a)(3) provides
an alternative path to the relief they seek. (Dkt. No.
212 at 18-20.) ERISA § 502(a)(3) provides that “[a]
civil action may be brought . . . by a participant, beneficiary, or fiduciary (A) to enjoin any act or practice
which violates any provision of this title or the terms
of the plan, or (B) to obtain other appropriate equitable relief (i) to redress such violations or (ii) to enforce

36a
any provisions of this title or the terms of the plan.”
29 U.S.C. § 1132(a)(3).
ERISA § 502(a)(3) is a “‘catchall’ provision[] [that]
act[s] as a safety net, offering appropriate equitable
relief for injuries caused by violations that § 502 does
not elsewhere adequately remedy.” Varity Corp. v.
Howe, 516 U.S. 489, 512 (1996). However, “[t]he provision authorizes solely equitable relief, and under the
Supreme Court’s decision in Great-West, [534 U.S. 204
(2002)], this means that money awards are available
in suits brought under § 502(a)(3) ‘only in very limited
circumstances.’” Wilkins v. Mason Tenders Dist.
Council Pension Fund, 445 F.3d 572, 578-79 (2d Cir.
2006) (quoting Gerosa v. Savasta & Co., 329 F.3d 317,
321 (2d Cir. 2003)); see also Coan v. Kaufman, 457
F.3d 250, 262 (2d Cir. 2006) (“Unlike section 502(a)(2),
section 502(a)(3) permits ERISA plan participants to
bring suit for individual remedies; but relief under
section 502(a)(3) must be ‘equitable.’” (quoting 29
U.S.C. § 1132(a)(3))).
PwC initially argues that it would be improper to
allow Plaintiffs to invoke ERISA § 502(a)(3) because
Plaintiffs have based their claims for class relief on
ERISA § 502(a)(1)(B). (Dkt. No. 211 at 20–21 (citing
Singletary, 828 F.3d at 349).) However, the Court is
persuaded that Plaintiffs may rely on § 502(a)(3) in
the alternative, for two reasons. First, in the SAC,
Plaintiffs broadly invoke ERISA § 502(a) as the provision under which all relief may be granted. (SAC at
41.) Second, courts have not been overly strict about
allowing an alternative theory of relief under ERISA
§ 502(a)(3). See Amara, 563 U.S. at 438–43.

37a
Plaintiffs first argue that the Court may provide
equitable relief where a plan administrator has
breached its fiduciary duty—and that failure to calculate benefits in accordance with ERISA amounts to
breach of fiduciary duty. (Dkt. No. 212 at 18-19.) See
Varity, 516 U.S. at 511 (“[A] plan administrator engages in a fiduciary act when making a discretionary
determination about whether a claimant is entitled to
benefits under the terms of the plan documents.”).
But as PwC points out, it was not making a discretionary determination about whether class members are
entitled to benefits—it was merely adhering to the
terms of the Plan and distributing benefits “calculated
ministerially according to the Plan’s terms.” (Dkt. No.
213 at 9.) Moreover, PwC correctly observes that,
when designing the complained-of plan term, PwC
was acting in its settlor capacity, not as a fiduciary.
(Dkt. No. 211 at 21; Dkt. No. 213 at 9.) Where “plan
sponsors acts to adopt, modify, or terminate an ERISA
plan, they act as settlors of a trust and do not fall into
the category of fiduciaries.” In re Am. Express. Co.
ERISA Litig., 762 F. Supp. 2d 614, 625 (S.D.N.Y.
2010) (citing Lockheed Corp. v. Spink, 517 U.S. 882,
890 (1996)).
Next, Plaintiffs argue that reformation is appropriate under ERISA § 502(a)(3). Cases in the Second
Circuit and other circuits have held that the equitable
remedy of reformation is available in cases of fraud
and mutual mistake—neither of which is at issue
here. Plaintiffs note that the Second Circuit has suggested that reformation is available where there is
“fraud, mutual mistake or terms violative of ERISA.”
Nechis v. Oxford Health Plans, Inc., 421 F.3d 96, 103
(2d Cir. 2005) (emphasis added) (Cudahy, J.) (citing

38a
DeVito v. Pension Plan of Local 819 I.B.T. Pension
Fund, 975 F. Supp. 258, 267 (S.D.N.Y. 1997)). But
this reference to ERISA-violative plan terms as an alternative basis for reformation (in the absence of
fraud or mistake) is dicta. Plaintiffs cite no other
cases that endorse this approach, and the court in
Nechis did not itself provide relief under ERISA
§ 502(a)(3) based on a finding that the plan terms violated ERISA. See id. (denying both injunctive relief
and restitution under ERISA § 502(a)(3) where the
claims were legal and not equitable in nature). Indeed, while DeVito, the case cited by the Nechis court,
indicates that a court may order a defendant to reform
its plan if it is found in violation of ERISA, 975
F. Supp. at 267, the court did “not[] reach the issue of
whether it has the authority to reform a pension plan
under ERISA.” 975 F. Supp. at 267 n.13 (emphasis
added).
Moreover, the Second Circuit has more recently
explained (on remand from the Supreme Court in the
Amara case) that, under federal common law, “[a] contract may be reformed due to the mutual mistake of
both parties, or where one party is mistaken and the
other commits fraud or engages in inequitable conduct,” where “such fraud reasonably cause[s] [a] plaintiff[] to be mistaken about the terms of [a] pension
plan.” Amara v. CIGNA Corp., 775 F.3d 510, 525-26
(2d Cir. 2014); see also Amara, 563 U.S. at 440 (“The
power to reform contracts (as contrasted with the
power to enforce contracts as written) is a traditional
power of an equity court, not a court of law, and was
used to prevent fraud.”); Restatement (Second) of Contracts § 166 (1981) (justifying reformation of a con-

39a
tract in light of a “party’s fraudulent misrepresentation”). The Second Circuit did not mention other circumstances under which reformation might be justified. And Plaintiffs do not allege mistake, fraud, or
inequitable conduct here. See Gabriel v. Alaska Elec.
Pension Fund, 773 F.3d 945, 955 (9th Cir. 2014) (“The
power to reform contracts is available only in the
event of mistake or fraud.”). Plaintiffs are therefore
not entitled to relief in the form of judicial reformation
under ERISA § 502(a)(3).
Moreover, PwC emphasizes that Plaintiffs seek legal, not equitable, relief. (Dkt. No. 211 at 22-24.) The
Supreme Court has held that ERISA § 502(a)(3) authorizes only “those categories of relief that were typically available in equity (such as injunction, mandamus, and restitution, but not compensatory damages).” Mertens, 508 U.S. at 256. PwC argues that
the relief sought by Plaintiffs in pursuing their whipsaw claims—money damages for the Plan’s implementation of the 30-year Treasury rate—is a legal remedy
that does not align with any of the forms of equitable
relief available under ERISA § 502(a)(3). (Dkt. No.
211 at 22-24.)
Indeed, judicial reformation under ERISA
§ 502(a)(3) is not available where a plaintiff seeks “to
impose personal liability on respondents for a contractual obligation to pay money—relief that was not typically available in equity.” Great-West, 534 U.S. at
210. “Almost invariably . . . suits seeking (whether by
judgment, injunction, or declaration) to compel the defendant to pay a sum of money to the plaintiff are suits
for ‘money damages,’ as that phrase has traditionally
been applied, since they seek no more than compensation for loss resulting from the defendant’s breach of

40a
legal duty.” Id. (alteration in original) (quoting Bowen
v. Massachusetts, 487 U.S. 879, 918-19 (1988) (Scalia,
J., dissenting)). Here, the requested declarations, if
granted, will result in the award of money damages
for benefits that were allegedly underpaid by PwC.
Plaintiffs attempt to restyle their requested relief
as equitable—characterizing it as an accounting for
profit, surcharge, unjust enrichment, or a constructive
trust. (Dkt. No. 212 at 18-20.) But, at bottom, they
are pursuing a legal claim for money damages. Of
course, “[e]quity courts possessed the power to provide
relief in the form of monetary ‘compensation’ for a loss
resulting from a trustee’s breach of duty, or to prevent
the trustee’s unjust enrichment.” Amara, 563 U.S. at
441-42 (emphasis added) (quoting Restatement
(Third) of Trusts § 95 & cmt. a (Tent. Draft No. 5, Mar.
2, 2009)). But Plaintiffs fail to demonstrate the
breach of any duty and have not shown any unjust enrichment. As the Second Circuit did in Nechis, the
Court here “decline[s] this invitation to perceive equitable clothing where the requested relief is nakedly
contractual.” Nechis, 421 F.3d at 104.
Finally, Plaintiffs argue that it would be “nonsensical” to find that the plan term at issue is in violation
of ERISA and yet preclude Plaintiffs from recovering.
(Dkt. No. 212 at 8.) They argue that supplying a remedy serves the purposes of ERISA as understood
through its preamble, which calls for the protection of
“the interests of participants in employee benefit
plans” by “providing for appropriate remedies.”
ERISA § 2(b). However, the Second Circuit has required close adherence to ERISA’s text over reliance
on its broadly stated purposes. In Central States, the

41a
Second Circuit asserted that “vague notions of a statute’s ‘basic purpose’ are . . . inadequate to overcome
the words of its text.” Central States, 771 F.3d at 159
(quoting Great-West, 534 U.S. at 220). The court expressly recognized that, “although [plaintiff] might
well be left without an appropriate remedy as a result
of this decision . . . the claims raised by [plaintiff] are
legal, not equitable, and therefore may not be brought
under § 502(a)(3).” Id. at 159-60.
Accordingly, the Court concludes that Plaintiffs
are not entitled to relief pursuant to ERISA
§ 502(a)(3).
II. Motion for Summary Judgment
Plaintiffs seek summary judgment as to liability
and relief under Counts One and Five of the SAC.
(Dkt. No. 216.) For the reasons stated above, Plaintiffs’ fail to establish they are entitled to relief under
ERISA for their whipsaw claims. Plaintiffs’ motion
for summary judgment is therefore denied.
III. Conclusion
For the foregoing reasons, Defendants’ motion for
judgment on the pleadings is GRANTED and Plaintiffs’ motion for summary judgment is DENIED.
The Clerk of Court is directed to close the motions
at Docket Numbers 209 and 216.
The parties are directed to provide a status update
or proposed judgment to the Court by August 14,
2017.
SO ORDERED.
Dated: July 24, 2017
New York, New York

42a
__/s/ J. Paul Oetken____
J. PAUL OETKEN
United States District
Judge

43a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
TIMOTHY LAURENT, et al.,
Plaintiffs,
-vPRICEWATERHOUSECOOPERS
LLP, et al.,

06-CV-2280
(JPO)
OPINION AND
ORDER

Defendants.
J. PAUL OETKEN, District Judge:
Plaintiffs Timothy Laurent and Smeeta Sharon
brought this action, on behalf of themselves and all
others similarly situated, against Defendants PricewaterhouseCoopers LLP, the Retirement Benefit Accumulation Plan for Employees of Pricewaterhouse
Coopers LLP, and the Administrative Committee to
the Retirement Benefit Accumulation Plan for Employees of Pricewaterhouse Coopers LLP (collectively,
“PwC”). Plaintiffs allege that PwC violated the Employee Retirement Income Security Act of 1974
(“ERISA”), 29 U.S.C. § 1001, et seq.
In an Opinion and Order dated July 24, 2017, this
Court granted PwC’s motion for judgment on the
pleadings and denied Plaintiffs’ motion for summary
judgment. See Laurent v. PricewaterhouseCoopers
LLP, No. 06 Civ. 2280, 2017 WL 3142067 (S.D.N.Y.
July 24, 2017). Familiarity with the facts, as set out

44a
in that prior Opinion and Order, is presumed. Plaintiffs move for reconsideration. (Dkt. No. 240.) For the
reasons that follow, the motion is denied.
I.

Legal Standard

“A motion for reconsideration is ‘an extraordinary
remedy to be employed sparingly in the interests of
finality and conservation of scarce judicial resources.
. . .’” Drapkin v. Mafco Consol. Grp., Inc., 818 F. Supp.
2d 678, 695 (S.D.N.Y. 2011) (quoting In re Initial Public Offering Sec. Litig., 399 F. Supp. 2d 298, 300
(S.D.N.Y. 2005)). To prevail, the movant must demonstrate either “(1) an intervening change in controlling
law; (2) the availability of new evidence; or (3) the
need to correct clear error or prevent manifest injustice.” Jacob v. Duane Reade, Inc., 293 F.R.D. 578,
580–81 (S.D.N.Y. 2013) (quoting Drapkin, 818 F.
Supp. 2d at 696 (S.D.N.Y. 2011)); see also Cioce v.
County of Westchester, 128 Fed. App’x 181, 185 (2d
Cir. 2005) (“Generally, motions for reconsideration
are not granted unless the moving party can point to
controlling decisions or data that the court overlooked—matters, in other words, that might reasonably be expected to alter the conclusion reached by the
court.” (quoting In re BDC 56 LLC, 330 F.3d 111, 123
(2d Cir. 2003)).
II. Discussion
Having reviewed the record and the parties’
briefs, the Court concludes that it overlooked neither
a controlling issue of law nor a crucial fact in the record. Thus, none of Plaintiffs’ arguments warrants reconsideration.
First, Plaintiffs contend that the Second Circuit’s
mandate in Laurent v. PricewaterhouseCoopers LLP,

45a
794 F.3d 272 (2d Cir. 2015), foreclosed this Court’s
conclusion that this suit was not authorized by ERISA
§ 502(a)(3). (Dkt. No. 241 at 3, 5.) Relatedly, Plaintiffs argue that PwC waived any argument that
§ 502(a)(3) does not authorize their action by failing to
present that argument to the Second Circuit. (Id. at
10.) This Court already considered and rejected these
two procedural arguments. (See Dkt. No. 238 at 30;
Dkt. No. 212 at 2–3.) Reconsideration is not warranted because Plaintiffs identify neither an intervening change in controlling law, any new evidence, nor
the need to correct clear error or prevent manifest injustice. See Jacob, 293 F.R.D. at 580–81.
Having rejected Plaintiffs’ procedural arguments,
the Court now turns to their substantive arguments.
First, Plaintiffs argue that the Court’s decision is contrary to Esden v. Bank of Boston, in which the Second
Circuit explained that ERISA “permits plan participants whose rights are violated by the terms of a plan
(or a plan amendment) to recover benefits.” 229 F.3d
154, 176 (2d Cir. 2000) (quoting Hearings on Hybrid
Pension Plans Before the Senate Comm. on Health,
Education, Labor and Pensions, 106 Cong. (1999)
(prepared testimony of Stuart Brown, Chief Counsel,
IRS)). Esden, however, is wholly consistent with this
Court’s opinion: ERISA “created substantive rights for
pension plan participants and expressly created private causes of action in federal court to vindicate those
rights.” Id. at 177 (citing ERISA § 502(a), which sets
out private rights of action under the statute). In order to vindicate a substantive right under ERISA, a
plaintiff’s action must be authorized by § 502(a), as
Esden clearly recognized. Here, the Court simply con-

46a
cluded that § 502(a) does not authorize the form of relief that Plaintiffs seek. “Although [Plaintiffs] might
well be left without an appropriate remedy as a result
of this decision,” the Court remains convinced that
their claims are “legal, not equitable, and therefore
may not be brought under § 502(a)(3).” See Cent.
States, Se. & Sw. Areas Health & Welfare Fund v. Ge
1
ber Life Ins. Co., 771 F.3d 150, 159–60 (2d Cir. 2014).
Second, Plaintiffs contend that the “structure” of
ERISA “compel[s] the conclusion” that § 502(a)(3) authorizes them to bring an action to enforce its substantive vesting requirements. (Dkt. No. 241 at 19.) Central States confirms, however, that Plaintiffs’ structural and purposive arguments, like their Esden argument, ultimately lack merit (even if there is some intuitive appeal to the idea that ERISA should not be
interpreted to leave beneficiaries without remedies for
statutory violations). In Central States, the Second
Circuit rejected the idea that “the underlying purposes of ERISA and of equitable relief generally would
permit a court to fashion an appropriate remedy.” 771
F.3d at 159 (2d Cir. 2014); see also id. at 158 (recognizing that “[c]ommentators have repeatedly noted
that as a result of this case law ERISA plans and beneficiaries are, in some circumstances, deprived of remedies”).
Finally, Plaintiffs request reconsideration of the
Court’s conclusion that the relief they seek does not
qualify as “appropriate equitable relief” under ERISA

1

Plaintiffs do not challenge the Court’s determination that
they do not have a cognizable claim under ERISA § 502(a)(1)(B)
for benefits. (Dkt. No. 241 at 1.)

47a
§502(a)(3). Plaintiffs identify two varieties of equitable relief, which they claim they are authorized to pursue under § 502(a)(3): (1) an “injunction” requiring the
plan administrator to “deviate from the plan’s unlawful terms”; and (2) “equitable surcharge.” (Dkt. No.
243 at 6–7.)
As to Plaintiffs’ request for “injunctive relief,” they
identify no precedent or authority authorizing a federal court to enjoin a plan administrator to “comply
with the [ERISA] statute.” (Dkt. No. 241 at 18.) Contrary to their argument, the Supreme Court’s GreatWest decision does not stand for the proposition that
§ 502(a)(3) authorizes an injunction to enforce a federal statute: that case merely noted, in the course of
holding that § 502(a)(3) does not authorize specific
performance of a contract, that the “Administrative
Procedure Act . . . does not bar a State from seeking
specific relief to obtain money to which it claims entitlement under the federal Medicaid statute.” GreatWest Life & Annuity Ins. Co. v. Knudson, 534 U.S. 204,
212 (2002) (emphasis added) (citing Bowen v. Massachusetts, 487 U.S. 879 (1988)). Neither Great-West nor
Bowen has any bearing on whether a plaintiff may enjoin compliance with ERISA under § 502(a)(3).
Plaintiffs’ overly broad conception of the injunctive relief available under § 502(a)(3) is also difficult
to square with the Supreme Court’s warning that “appropriate equitable relief” cannot be interpreted to
mean “all relief available for breach of trust” in the
common-law courts of equity. Mertens v. Hewitt Assocs., 508 U.S. 248, 257–58 (1993) (“Since all relief
available for breach of trust could be obtained from a
court of equity, limiting the sort of relief obtainable
under § 502(a)(3) to ‘equitable relief’ in the sense of

48a
‘whatever relief a common-law court of equity could
provide in such a case’ would limit the relief not at
all,” rendering the modifier “appropriate” superfluous.) This inconsistency between Supreme Court
precedent and Plaintiffs’ argument is especially clear
insofar as they claim that trust law principles permit
the Court to enjoin the Plan Administrator, as a trustee, to “deviate from” the “terms of the trust.” (Dkt.
No. 243 at 6). The mere fact that Plaintiffs seek relief
against a trustee does not, by itself, transmogrify legal
relief into appropriate equitable relief under ERISA.
Regarding the final, alternative equitable remedy
sought by Plaintiffs, § 502(a)(3) does authorize actions
for “equitable surcharge.” See, e.g., CIGNA Corp. v.
Amara, 563 U.S. 421, 442 (2011); Osberg v. Foot
Locker, Inc., 555 F. App’x 77, 80 (2d Cir. 2014). Nonetheless, Plaintiffs fail to meet their “initial burden” to
establish the elements of a claim for that equitable
remedy, namely: (1) a breach of fiduciary duty that (2)
caused them to “suffer[] a ‘related loss.’” Amara v.
CIGNA Corp., 925 F. Supp. 2d 242, 258 (D. Conn.
2012), aff’d, 775 F.3d 510 (2d Cir. 2014).
As the Court explained in its original opinion,
Plaintiffs have failed to identify any breach of fiduciary duty by PwC, and this failure precludes them from
seeking an equitable surcharge. See Laurent, 2017
WL 3142067, at *8. Plaintiffs claim that the Court
overlooked New York State Psychiatric Ass’n, Inc. v.
UnitedHealth Group., 798 F.3d 125 (2d Cir. 2015),
which cited Kendall v. Employees Retirement Plan of
Avon Products, 561 F.3d 112, 120 (2d Cir. 2009), for
the proposition that “[t]he statute . . . impose[s] a general fiduciary duty to comply with ERISA.” New York

49a
State Psychiatric Ass’n, 798 F.3d at 131 (second alteration added). Plaintiffs argue that PWC breached this
“general fiduciary duty” to comply with ERISA, and
that this breach entitles them to the remedy of equitable surcharge. (Dkt. No. 241 at 21.)
The Court disagrees with the notion that ERISA
imposes a general fiduciary duty on a plan administrator to comply with each and every provision in the
statute. First, the Kendall quote is taken out of context. Kendall is about Article III standing, not the
proper interpretation of § 502(a)(3). In the course of
concluding that the plaintiff lacked standing to bring
certain ERISA claims, the Second Circuit explained
that “[t]he statute does impose a general fiduciary
duty to comply with ERISA, but it does not confer a
right to every plan participant to sue the plan fiduciary for alleged ERISA violations without a showing
that they were injured by the alleged breach of the
duty.” Kendall, 561 F.3d at 120. The Court does not
read Kendall to hold that a plan administrator
breaches his fiduciary duty whenever he fails to depart from a term of the plan—such as the whipsaw
projection rate and nonretirement-age terms at issue
here—which conflict with an ERISA provision.
Instead, the Court agrees with Judge Garaufis’s
conclusion that “[t]rustees do not breach their fiduciary duties under ERISA simply by presiding over a
plan which fails in some respect to conform to one of
ERISA’s myriad provisions.” Cement & Concrete
Workers Dist. Council Pension Fund v. Ulico Cas. Co.,
387 F. Supp. 2d 175, 184 (E.D.N.Y. 2005), aff’d, 199 F.
App’x 29 (2d Cir. 2006). Consistent with this Court’s
previous opinion, “a trustee breaches an ERISA fiduciary duty only where, when acting as a fiduciary

50a
within the meaning of ERISA § 3(21)(A) . . . , the trustee fails to discharge one or more of the duties described in 29 U.S.C. § 1104.” Id. at 184. Here, Plaintiffs have failed to adequately allege such a breach.
Therefore, their claim for equitable surcharge under
§ 502(a)(3) fails.
III. Conclusion
For the foregoing reasons, Plaintiffs’ motion for
reconsideration (Dkt. No. 240) is DENIED.
As counsel for Plaintiffs acknowledged during oral
argument, the conclusion reached by the Court re2
solves all remaining claims asserted in this action.
Accordingly, the Second Amended Complaint is dismissed with prejudice.
The Clerk of Court is directed to close this case.
SO ORDERED.
Dated: January 19, 2018
New York, New York
__/s/ J. Paul Oetken____
J. PAUL OETKEN
United States District
Judge

2

See Dkt. No. 238 at 52 (“Effectively, your Honor, that would
be – I agree with my colleague – that would be the end of the
case. We’re not saying that they committed fraud in connection
with the projection. . . . So that would be the end.”).

51a
APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
TIMOTHY LAURENT, et al.,
Plaintiffs,
-vPRICEWATERHOUSECOOPERS
LLP, et al.,

06-CV-2280
(JPO)
OPINION AND
ORDER

Defendants.
J. PAUL OETKEN, District Judge:
Plaintiffs Timothy Laurent and Smeeta Sharon
brought this action, on behalf of themselves and all
others similarly situated, against Defendants PricewaterhouseCoopers LLP, the Retirement Benefit Accumulation Plan for Employees of PricewaterhouseCoopers LLP, and the Administrative Committee to
the Retirement Benefit Accumulation Plan for Employees of PricewaterhouseCoopers LLP (collectively,
“PwC”). Plaintiffs allege that PwC violated the Employee Retirement Income Security Act of 1974
(“ERISA”), 29 U.S.C. § 1001 et seq.
In an Opinion and Order dated July 24, 2017, this
Court granted PwC’s motion for judgment on the
pleadings and denied Plaintiffs’ motion for summary
judgment. See Laurent v. PricewaterhouseCoopers
LLP (“Laurent II”), No. 06 Civ. 2280, 2017 WL
3142067 (S.D.N.Y. July 24, 2017). Plaintiffs moved
for reconsideration, and that motion was denied on

52a
January 19, 2018 (see Dkt. No. 244.). The Clerk of
Court subsequently entered judgment against Plaintiffs (see Dkt. No. 245). On February 5, 2018, Plaintiffs moved, pursuant to Federal Rules of Civil Procedure 60(a) and 60(b), for clarification or modification
of the Court’s order denying reconsideration. (See
Dkt. No. 246.) For the reasons that follow, the motion
is denied.
I.

Legal Standard

“Rule 60(a) allows for the correction of clerical
mistakes, oversights, and omissions in order to ‘implement the result intended by the court at the time [an]
order was entered.’” Weiming Chen v. Ying-Jeou Ma,
595 F. App’x 79, 80 (2d Cir. 2015) (alteration in original) (quoting Rezzonico v. H & R Block, Inc., 182 F.3d
144, 150 (2d Cir. 1999)). “However, a court acting pursuant to Rule 60(a) may not make ‘changes that alter
the original meaning [of an order] to correct a legal or
factual error.’” Id. (alteration in original) (quoting
Rezzonico, 182 F.3d at 151).
“Rule 60(b) is ‘a mechanism for extraordinary judicial relief invoked only if the moving party demonstrates exceptional circumstances.’” Id. (quoting Ruotolo v. City of New York, 514 F.3d 184, 191 (2d Cir.
2008)). Rule 60(b) relief is available for, inter alia, the
following reasons: “(1) mistake, inadvertence, surprise, or excusable neglect; . . . or (6) any other reason
that justifies relief.” Fed. R. Civ. P. 60(b). Such relief
is not available, however, “where the moving party
seeks solely to relitigate an issue already decided.”
Weiming Chen, 595 F. App’x at 80 (quoting Shrader v.
CSX Transp., Inc., 70 F.3d 255, 257 (2d Cir. 1995));
see also United Airlines, Inc. v. Brien, 588 F.3d 158,

53a
176 (2d Cir. 2009) (“[A] Rule 60 motion ‘may not be
used as a substitute for appeal’ and . . . a claim based
on legal error alone is ‘inadequate.’”
(quoting
Matarese v. LeFevre, 801 F.2d 98, 107 (2d Cir. 1986))).
II. Discussion
Having reviewed the record and the parties’
briefs, the Court concludes that Plaintiffs are not entitled to relief under either subsection of Rule 60.
First, to the extent that Plaintiffs rely on Rule
60(a), their failure to identify any clerical error in the
Court’s prior decisions is fatal to their motion. See
Weiming Chen, 595 F. App’x at 80.
Second, Plaintiffs have not identified any “mistake, inadvertence, surprise, or excusable neglect; . . .
or . . . any other reason that justifies relief” under Rule
60(b). Instead, Plaintiffs’ motion amounts to a claim
of legal error, which is not cognizable on a Rule 60(b)
motion.
Like their brief in support of reconsideration (see
Dkt. No. 241 at 3), Plaintiffs’ Rule 60(b) argument centers on the meaning of footnote 19 of the Second Circuit’s opinion in Laurent v. PricewaterhouseCoopers
LLP (“Laurent I”), which states:
65 is not only (part of) the statutory default
normal retirement age, but it is also the default normal retirement age under the plan.
Since ERISA grants a private cause of action
to enforce, inter alia, “the terms of the plan,”
PwC may be compelled to “act ‘in accordance
with the documents and instruments governing the plan’ insofar as they accord with the
statute.”

54a
794 F.3d 272, 289 n.19 (2d Cir. 2015) (internal citations omitted) (first quoting 29 U.S.C. § 1132(a)(3),
then quoting US Airways, Inc. v. McCutchen, 569 U.S.
88, 101 (2013)).
Based on this footnote, Plaintiffs’ motion for reconsideration contended that the Court’s conclusion
that ERISA § 502(a)(3) does not authorize the relief
Plaintiffs seek was inconsistent with the Second Circuit’s mandate in Laurent I. The Court has now twice
rejected Plaintiffs’ argument that the Second Circuit
already decided that a remedy was available under
ERISA § 502(a)(3).
(See Laurent II, 2017 WL
3142067, at *4; Dkt. No. 244 at 2.) In their Rule 60(b)
motion, Plaintiffs’ claim about the proper interpretation of footnote 19 is slightly weaker: Instead of arguing that the footnote mandated that the Court allow
their suit to proceed under ERISA § 502(a)(3), they
now argue that footnote 19 permitted this Court to “order Defendants to comply with the lawful terms of the
Plan” under § 502(a)(3). (Dkt. No. 246 at 2 (alterations omitted)).
As the Court has previously explained, “[t]he Second Circuit expressly left ‘to the district court’” the
question of what, if any, remedy is available to Plaintiffs. (Laurent II, 2017 WL 3142067, at *4 (quoting
Laurent I, 794 F.3d at 289).) The fact that footnote 19
contemplated that § 502(a)(3) might afford Plaintiffs
a remedy, however, does not justify relief under Rule
60(b), because the Court has already answered the
question left open by the Second Circuit: Section
502(a)(3) of ERISA does not authorize the relief Plaintiffs seek—i.e., the recalculation of benefits. The
Court cannot order recalculation of benefits under

55a
§ 502(a)(3), regardless of whether such relief would require the Court to replace illegal Plan terms or, as
Plaintiffs now argue, to determine whether the 30year Treasury projection rate violated ERISA and
then “remand to PwC . . . ‘to act in accordance with
the documents and instruments governing the plan
insofar as they accord with the statute.’” (Dkt. No.
246 at 2 (emphasis added) (quoting Laurent I, 794
F.3d at 289 n.19).) As Defendants rightly point out,
“the Plan does not contain any projection rate that
Plaintiffs accept as ‘lawful.’” (Dkt. No. 247 at 5.)
In short, the Court has twice concluded that
§ 502(a)(3) does not authorize Plaintiffs to pursue equitable relief in the form of recalculated benefits. At
this point, the proper vehicle for challenging this conclusion is an appeal, rather than a motion under Rule
60.
III. Conclusion
For the foregoing reasons, Plaintiffs’ motion for
clarification or modification is DENIED.
The Clerk of Court is directed to close the motion
at Docket Number 246.
SO ORDERED.
Dated: April 24, 2018
New York, New York
__/s/ J. Paul Oetken____
J. PAUL OETKEN
United States District
Judge

56a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
____________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 12th day of February,
two thousand twenty.
Timothy D. Laurent and Smeeta
Sharon, on behalf of themselves and
all others similarly situated,
Plaintiffs - Appellants,

ORDER
Docket No: 18487

v.
PricewaterhouseCoopers LLP, The
Retirement Benefit Accumulation
Plan for Employees of PricewaterhouseCoopers LLP, The Adminstrative Committee to the Retirement
Benefit Accumulation Plan for Employees of PricewaterhouseCoopers
LLP,
Defendants - Appellees.

57a
Appellees, PricewaterhouseCoopers LLP, The Adminstrative Committee to the Retirement Benefit Accumulation Plan for Employees of PricewaterhouseCoopers LLP and The Retirement Benefit Accumulation Plan for Employees of PricewaterhouseCoopers
LLP, filed a petition for panel rehearing, or, in the alternative, for rehearing en banc. The panel that determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan
Wolfe, Clerk

58a
APPENDIX F
EXCERPTS FROM
DEFERRED JOINT APPENDIX
C.A. Dkts. 105–112,
No. 18-487 (2d Cir. Nov. 29, 2018)
TABLE OF CONTENTS
Second Amended Class Action Complaint (Dist.
Ct. Dkt. 133 dated Aug. 22, 2012)
(excerpts)
Joint Appendix pp. 124–129 ........................60a
Joint Appendix pp. 142–148 ........................66a
Joint Appendix pp. 153–154 ........................74a
Retirement Benefit Accumulation Plan for
Employees of PricewaterhouseCoopers
LLP, Summary Plan Description (Dist.
Ct. Dkt. 24-5 dated July 1, 1999)
(excerpt)
Joint Appendix pp. 977–980 ........................76a
IRS Determination Letter for Retirement
Benefit
Accumulation
Plan
for
Employees of PricewaterhouseCoopers
LLP (Dist. Ct. Dkt. 24-6 dated Feb. 9,
1996)
Joint Appendix pp. 991–992 ........................83a
IRS Determination Letter for Retirement
Benefit
Accumulation
Plan
for
Employees of PricewaterhouseCoopers
LLP (Dist. Ct. Dkt. 24-6 dated Mar. 22,
2004)
Joint Appendix pp. 993–994 ........................86a

59a
Retirement Benefit Accumulation Plan for
Employees of PricewaterhouseCoopers
LLP (Part 2) (Dist. Ct. Dkt. 210-4 dated
July
1,
1995)
(excerpt)
Joint Appendix pp. 1040–1048 ....................89a
IRS Technical Advice Memorandum, 2014-EPWC-L005037-45 (Dist. Ct. Dkt. 221-1
dated
May
28,
2014)
Joint Appendix pp. 1189–1197 ....................99a

60a
THE PARTIES
20. Plaintiff Timothy D. Laurent of Inverness, Illinois, a former PwC employee, was and remains a
participant, as defined in ERISA § 3(7) in the RBAP.
In 2002, after terminating employment with PwC, he
requested a single lump sum distribution of his benefit from the RBAP. On or about May 20, 2002, Mr.
Laurent was paid a lump sum equal to the sum of
(1) the nominal balance of his hypothetical cash balance account and (2) the Plan-calculated present
value of his accrued benefit under the Coopers &
Lybrand Retirement Plan as of June 30, 1998. The
lump sum payment was less than the value of his accrued benefit.
21. Plaintiff Smeeta Sharon of New York, New
York, a former PwC employee, was and remains a participant, as defined in ERISA § 3(7) in the RBAP. In
2002, after terminating employment with PwC, she
requested a single lump sum distribution of her benefit from the RBAP. On or about April 30, 2002, Ms.
Sharon was paid the nominal balance of her hypothetical cash balance account, an amount less than the
value of her accrued benefit.
22. Defendant PricewaterhouseCoopers LLP is a
Delaware limited liability partnership organized and
existing pursuant to the PwC Partners and Principals
Agreement (incorporated herein by reference). PwC
is the sponsor of the RBAP. PwC also was and/or is
the RBAP’s administrator within the meaning of
ERISA § 3(16)(A). PwC’s headquarters are located at
300 Madison Avenue, New York, New York 100176204. All references to “PwC” include its predecessors, including Price Waterhouse LLP and Coopers &
Lybrand LLP.

61a
23. Defendant The Retirement Benefit Accumulation Plan for Employees of PricewaterhouseCoopers
LLP (“RBAP” or the “Plan”) is a “cash balance” pension plan covering PwC partners and principals
142
(“partners”), directors, and employees.
The RBAP
is an “employee pension benefit plan” within the
meaning of ERISA § 3(2)(A) and more precisely a “defined benefit plan,” see RBAP at 1-2, within the meaning of ERISA § 3(35) and IRC § 414(j), and a “pension
plan” within the meaning of IRC § 401(a) and Treas3
ury Regulation (“Treas. Reg.”) § 1.401-1(b)(1)(i). The
Plan is overseen and administered in significant part
by individuals who work and/or reside in this District.

2

“RBAP” refers, as the case may be, to the RBAP in its entirety or the document commonly referred to as the “RBAP plan
document.” The RBAP plan document is an “Agreement” between, among others, PwC and “the Trustees” amended and restated effective July 1, 1995. References to the RBAP plan document are to that Agreement together with all amendments, exhibits, appendices, supplements, and agreements or side letters
or special annual memoranda to partners, all of which, as updated to the present, are incorporated herein by reference. References to the “RBAP” include the RBAP plan document and
other related documents such as the Summary Plan Description(s) (“SPD”), all of which are also incorporated herein by reference.
3

ERISA consists of four titles. Citations to specific sections of
ERISA refer to sections in Title I. However, any reference to a
particular provision of Title I should be interpreted as including
a reference to the parallel provision in Title II, which is codified
in the Internal Revenue Code. Similarly, any reference to a particular provision of the Internal Revenue Code should be interpreted as including a reference to the parallel provision in Title
I. More generally, references to ERISA should be interpreted to
include a reference to the Internal Revenue Code.

62a
For example, many of the Plan’s Trustees and members of the Plan’s Administrative Committee work
and/or reside in the District; the Plan’s IRS determination letters were addressed to PwC’s offices in this
District; and the Plan’s lead actuaries during all or
most of the years at issue in this lawsuit work and/or
reside in the District.
24. Defendant The Administrative Committee to
the Retirement Benefit Accumulation Plan for Employees of PricewaterhouseCoopers LLP (the “Administrative Committee” or “Committee”) was and/or is
the RBAP’s Administrator within the meaning of
ERISA § 3(16)(A). The Committee and its current and
former members were and/or are named fiduciaries
with respect to the RBAP within the meaning of
ERISA § 402(a). A number of Committee members
work and/or reside in this District.
BACKGROUND
I. Basic Description of the RBAP and Plaintiffs’ Benefits Thereunder.
25. Prior to July 1, 1994, the RBAP’s effective
date, Price Waterhouse LLP, a predecessor of PwC,
maintained for its employees a traditional defined
benefit plan, known as the Retirement Plan for Employees of Price Waterhouse LLP. Effective June 30,
1994, Price Waterhouse LLP froze benefit accruals
under that plan, effectively replacing it with the
RBAP, which became effective July 1, 1994.
26. On July 1, 1998, Price Waterhouse LLP and
Coopers & Lybrand LLP merged to create PwC. On
that same date, Coopers & Lybrand LLP’s traditional
defined benefit plan, the Coopers & Lybrand Retirement Plan, was amended to provide for a cash balance

63a
formula under which participants’ hypothetical accounts were credited with compensation credits and
interest credits at rate based on Treasury securities.
Normal retirement age under the Coopers & Lybrand
Retirement Plan was defined as age 65. The RBAP
merged into the Coopers & Lybrand Retirement Plan
one year later, on July 1, 1999, and the merged plan
was amended and restated as the amended and restated RBAP. (Accordingly, all references to the
RBAP herein should be read to include the Coopers &
Lybrand Retirement Plan from July 1, 1998 until July
1, 1999).
27. The RBAP includes a benefit formula that is
commonly-referred to as a “cash balance” pension formula. The benefits payable under the Plan are calculated in part based on the value of the hypothetical
“account” established under the Plan for each participant.
28. Similar to other plans that include cash balance formulas (“cash balance plans”), participants in
the RBAP receive hypothetical periodic “pay credits”
to their hypothetical accounts each month. Non-partner employees receive credits equal to 5-8% of the employee’s monthly compensation. Partners generally
receive pay credits over a 10 year period equal to approximately 10% of the maximum contribution permitted under ERISA.
29. Account balances are adjusted each business
day by hypothetical “investment credits” (or debits),
which are the RBAP’s version of the more typical cash
balance “interest credits.” RBAP participants choose
from among a PwC-selected menu of “investment experience choices” (essentially, investment options) in

64a
which their accounts are deemed to be invested (or, if
no choice is made, they are defaulted into the money
market fund). The Plan thus credits participant accounts with hypothetical interest (investment credits)
based on real market rates of return: the investment
credits reflect the results of each participant’s hypothetical investment performance. Moreover, participants may reallocate their deemed investment mix on
a daily basis.
30. Under the terms of the RBAP, most participants have the right to leave their account balances in
the Plan even after terminating employment or retiring and to continue receiving investment credits.
RBAP § 2.13(b). More specifically, a participant with
an account balance in excess of $5,000 at the time of
his termination of employment is permitted to leave
his or her benefits in the RBAP through April 1 of the
year following the later of retirement or the date the
participant attains age 70½. RBAP §§ 5.1, 5.6.
31. A participant’s right to receive future investment credits on his account balance through normal
retirement age accrues at the same time as the corresponding pay credits to which the investment credits
relate – that is, the right to receive future investment
credits through normal retirement age is not conditioned on the performance of additional services for
PwC. Accordingly, the RBAP’s investment credits are
“frontloaded” within the meaning of IRS Notice 96-8.
(If the Plan was not a frontloaded plan, it would violate ERISA’s anti-backloading standards.) As a result, the future investment credits payable on existing
account balances through the date each participant
attains his or her normal retirement age are part of
each RBAP participant’s current “accrued benefit”

65a
within the meaning of ERISA.
§ 1.417(e)-1(d).

Id.; Treas. Reg.

32. The RBAP provides that a participant is fully
vested upon the completion of five (5) years of service
with PwC or a related employer. Plaintiffs were fully
vested under this provision by the time they terminated employment with PwC. Plaintiffs’ RBAP account balances exceeded $5,000 at the time of their
termination of employment.
33. As a result, at the time of their termination of
employment, each Plaintiff had a vested accrued benefit within the meaning of ERISA equal to (1) the nominal balance in their hypothetical cash balance account, plus (2) the stream of future investment credits
payable on such account balance through normal retirement age; together expressed as a life annuity
commencing at normal retirement age.
34. Plaintiffs Laurent and Sharon received a single lump sum payment from the Plan on or about May
20, 2002 (Mr. Laurent) and April 30, 2002 (Ms. Sharon).
The payment made to Mr. Laurent was
$24,432.65, an amount equal to the sum of (1) the
nominal balance of his hypothetical cash balance account and (2) the Plan-calculated present value of his
accrued benefit under the Coopers & Lybrand Retirement Plan as of June 30, 1998. The payment made to
Ms. Sharon was $9,527.02, an amount equal to the
nominal balance in her cash balance account.
*

*

*

66a
VII.
Violations of ERISA Lump Sum and
Vesting Standards.
82. Defendants’ use of the RBAP-defined NRA
and Deemed Plan Interest Rate also caused Defendants to violate ERISA’s provisions governing the calculation and payment of benefits in the form of a lump
sum.
83. Had Defendant calculated and paid lump
sums using age 65 as the statutory NRA, as required,
participants would have received the full amount of
accrued benefits to which they were legally entitled
under the terms of the Plan and ERISA. As it was,
Plaintiffs and members of the Class unwittingly forfeited a significant portion of their accrued benefits
solely because they elected to receive benefits in the
form of a single sum following termination of employment rather than as an annuity commencing at age
65. This occurred as follows.
84. As described above, the RBAP is a “frontloaded” cash balance plan that calculates interest
credits by reference to investment measures that are
variable. According to the IRS’s authoritative interpretation of the law: “A frontloaded interest credit
plan that specifies a variable outside index for use in
determining the amount of interest credits must
[1] prescribe the method for reflecting future interest
credits in the calculation of an employee’s accrued
benefit. In order to comply with [Tax Code] section
401(a)(25), the method, including actuarial assumptions, if applicable, must preclude employer discretion. [2] Further, in determining the amount of an
employee’s accrued benefit, a forfeiture, within the
meaning of [Treasury Regulation] section 1.411(a)-4T,

67a
will result if the value of future interest credits is projected using a rate that understates the value of those
credits or if the plan by its terms reduces the interest
rate or rate of return used for projecting future interest
credits. [3] A forfeiture in violation of [Tax Code] section 411(a) [and ERISA § 203] also will occur if, in determining the amount of an employee’s accrued benefit, future interest credits are not taken into account
(i.e., there is no projection of future interest credits)
and this has the same effect as using a rate that understates the value of future interest credits.” IRS Notice 96-8 (emphasis added).
85. The methodology used by Defendants to calculate lump sums under the RBAP did not comply with
any of these three standards. Defendants’ failure to
comply with each constituted independent violations
of ERISA.
86. First, for the reasons described above, the
statutory NRA under the Plan necessarily is age 65
for all participants regardless of their years of service
with PwC. Therefore, when calculating lump sums
Defendants were required to project a participant’s
current account balance at the Plan’s investment
crediting rate through age 65. But, except in the case
of lump sums paid to the beneficiary of a participant
who died before completing 5 years of service, Defendants did not do this. (Lump sums paid to beneficiaries
of participants who died before completing 5 years of
service were calculated by projecting the deceased
participant’s account balance at the Deemed Plan Interest Rate to the date he or she would have attained
age 65, and calculating the present value of the resulting projected age-65 account balance using required

68a
ERISA discount rate and mortality factors. See Plan
§§ 5.7 and 5.4(b).)
87. Plan § 5.1 only purported to project interest
through the RBAP-defined NRA, which for participants who had completed 5 years of service was the
date the participant reached that 5-year milestone,
not age 65. Defendants did not disregard the terms of
the Plan and project interest to age 65 for these participants. The result is that the vast majority of participants who received lump sum distributions had
completed 5 years of service by the time of the distribution so for these participants (whose RBAP-defined
NRA was a date in the past), there was no projection
at all: lump sums were defined as an amount equal to
the participant’s current account balance. See Plan
§§ 5.4(b) and 5.1. Because lump sums paid to participants in this category, which includes Plaintiffs Laurent and Sharon along with most other members of
the proposed Lump Sum Class, did not take future interest credits into account at all – “i.e., there is no projection of future interest credits,” Notice 96-8 – the
lump sums necessarily resulted in unlawful forfeitures of accrued benefits in violation of IRC § 411(a)
and ERISA § 203(a). See Notice 96-8 requirement [3]
above.
88. Second, even ignoring the absence of a projection to age 65, the lump sums were nevertheless calculated unlawfully because, as alleged above, the calculation was performed using a projection rate that
was not Defendants’ actual estimate of future interest
credits. As described above, RBAP § 5.4 provides that
lump sums shall be no less than the present value of
a participant’s “Normal Retirement Benefit.” A participant’s Normal Retirement Benefit is defined as the

69a
participant’s current account balance projected to normal retirement age at the 30-year Treasury rate. So
the rule under the RBAP was that lump sums would
be based on a participant’s current account balance
“projected” to “Normal Retirement Age.”
89. But while the RBAP’s lump sum calculation
formula does include a “projection” of a participant’s
account balance to normal retirement age, it was not
the product of any bona fide attempt to reflect the
value of future interest credits in the calculation of the
participant’s accrued benefit. Thus, for example, Defendants’ selection of the 30-year Treasury rate was
not based on any studies or analyses conducted or relied upon by Defendants to establish an estimate of
the investment returns a participant would receive
were he to defer his pension until age 65 (or for that
matter, any date in the future). Defendants could not
then and cannot today provide any contemporaneously-available support, empirical or otherwise, for
their selection of the 30-year Treasury rate. It was
and is a projection rate in name only.
90. Indeed, all of the information available to Defendants, based in part on their projections of marketbased investment returns for other purposes, showed
or should have showed Defendants that 30-year
Treasury rate (and in particular, the annual rate of
interest equal to the interest rate on 30-year Treasury
securities, as specified by the IRS for the month of
February (or before July 1, 2001, the month of May)
immediately preceding the plan year in which the calculation is made) was not an appropriate predictor of
future investment crediting rates under the RBAP.

70a
91. PwC’s and the Plan’s own estimates of future
rates of return on participant accounts exceeded Defendants’ estimates of the future rate of return on 30year Treasury bonds.
92. Defendants told Plan participants that, with
an appropriately diversified portfolio, they could expect to earn rates of return that would significantly
exceed the expected return on Treasury bonds and
other “risk-free” investments. For example, in the
July 1, 1994, RBAP Highlights Guide (PwC-L000857)
distributed to participants, each of the five “Model
Portfolios” presented by Defendants were shown to
have historical average returns over the 20-year period ended June 30, 1994 ranging between 10.7%
(Preservation of Capital model portfolio) and 14.4%
(Very Aggressive Growth model portfolio). The Guide
explained that the average annual rate of return on
Treasury bills (1926-1993) had been 3.7% and implied
that Treasury bills would be a poor investment for
most participants because “Treasury Bills have historically provided almost no real return and in some
instances have actually lost ground to inflation. Thus,
while Treasury Bills offer apparent safety and predictability in the short-run, they pose a potentially
very serious risk of purchasing power loss over longer
periods of time. This result is just the opposite of the
case described above with stocks, which exhibit shortterm volatility risk but offer greater long-term security.” Id. at PwC-L00910-00911.
93. The Highlights Guide advised participants
that “[a] key component in selecting the appropriate
asset allocation strategy for your portfolio should be
based on your investment time horizon, so it’s important that you carefully consider what your specific

71a
time horizon might be. * * * Over a twenty-year period, there is plenty of time for stock market ups and
downs to average out to a more consistent and attractive long-term average annual return. In fact, stocks
have outperformed bonds and Treasury Bills in virtually all periods of 20 years or longer. Thus, the risk
associated with unpredictable short-term stock market fluctuations is virtually eliminated for long-term
investors. * * * For the reasons cited above, investors
with 15 to 20 or more years to invest should generally
consider placing most of their portfolios in stocks to
achieve the highest returns.” Id. at PwC-L0090900910.
94. The Highlights Guide suggested that most if
not all participants should consider themselves to
have investment time horizons of at least 15 to 20
years, explaining: “If you are currently 35 years old,
you’ll likely not tap into your account for at least 25
years. Even if you’re within two years of retirement,
you most likely will spend your dollars gradually over
the remainder of your life.” Id. at PwC-L00909.
95. Defendants re-issued the Guide in substantially identical form in subsequent years. Defendants
provided similar information and investment advice
on the Plan website, in other summary plan descriptions (“SPDs”) and elsewhere, e.g., in financial planning advice distributed to principles and partners.
96. Defendants believed that RBAP participants
were intelligent individuals who could understand the
information and advice provided in the Highlights
Guide, on the Plan website, and elsewhere, which advice was set forth in plain English at a level appropri-

72a
ate to the educational level of an average Plan participant receiving the information. Defendants also believed RBAP participants would accept the accuracy
of the information provided in the Guide and that
many participants would follow the advice given. Defendants did not believe that every participant would
invest 100% of their hypothetical account balances in
funds that would track or approximate the return on
30-year Treasury securities.
97. Third, even assuming the “deemed” projection
rate was the result of a bona fide attempt to estimate
the value of future interest credits, the RBAP’s lump
sum calculation methodology still violated ERISA because use of the 30-year Treasury bond rate undervalued future interest credits. Treasury securities are
considered “riskless” assets with a correspondingly
low expected rate of return. Interest credits under the
Plan are based on the rate of return of the portfolio of
mutual funds selected by each participant. See Plan
§ 2.14. As the investment expert used by Defendants
to support their motion for summary judgment explained: “Since a portfolio of stocks and bonds has by
definition more market risk than a riskless asset, investors demand a risk premium and hence a higher
expected rate of return for holding it.” Sharpe Decl.
(Doc. 66) ¶ 20. See also Def. Rule 56.1 Stmt. (Doc. 67)
¶ 17. The Highlight Guides described above reflect
that Defendants knew this when the RBAP was
adopted.
98. Accordingly, it would have been unlawful for
Defendants to use the 30-year Treasury rate to calculate lump sums because that would have meant that
participants who elected to receive benefits in the
form of a lump sum would have been forced to forfeit

73a
the portion of the return they would have been expected to receive had they left their accounts in the
Plan and taken a pension at age 65. This would have
violated ERISA because it “conditions an employee’s
right to future interest credits on the form of the distribution he elects to take (pension at age 65 or lump
sum now), which is precisely what the law forbids.”
Berger v. Xerox Corp. Ret. Income Guar. Plan, 338
F.3d 755, 762 (7th Cir. 2003). See, e.g., ERISA
§ 203(a)(2), IRC § 411(a)(2), and Treas. Reg.
§ 1.411(a)-4.
99. On information and belief, Defendants explicitly recognized that the IRS would not or would not
likely accept such a projection rate if PwC were to
adopt it and the agent assigned to review the Plan’s
determination letter application noticed and/or understood the significance of its usage in the context of this
Plan.
100.
For each of these reasons, Defendants violated ERISA when they calculated and paid lump
sums that were less than the ERISA-defined present
value of a participant’s statutory accrued benefit, including future investment credits through normal retirement age.
*

*

*

74a
CLAIMS FOR RELIEF
COUNT ONE
UNLAWFUL LUMP SUM CALCULATION
113.
Plaintiffs repeat and re-allege the allegations contained in the foregoing paragraphs of this
Complaint as if fully set forth herein.
114.
Plaintiffs bring this claim on behalf of
themselves and the proposed Class.
115.
For the reasons described above, the
RBAP-defined NRA cannot be used as the Plan’s statutory NRA within the meaning of ERISA § 3(24) and
IRC § 411(a)(8) to apply ERISA’s vesting and lump
sum benefit calculation standards. Thus, ERISA and
the terms of the Plan (e.g., Plan §§ 2.32 and 16.6(b))
require that age 65 be used as the statutory normal
retirement age.
116.
Using age 65 as the statutory NRA, the
manner in which Defendants calculated and paid
lump sum benefits to Plaintiffs and other RBAP participants violated ERISA §§ 204(c)(3) and 204(g), IRC
§§ 411(c)(3) and 417(e), and Treas. Reg. §§ 1.411(a)7(a)(1) and 1.411(c)-1(e).
117.
Lump sums paid to Plaintiffs and other
participants were smaller than the ERISA-defined actuarial present value of the statutory accrued benefit
to which each participant was lawfully entitled under
the term of the Plan and ERISA, resulting in an unlawful forfeiture of accrued benefits in violation of IRC
§ 411(a) and ERISA § 203(a). Defendants’ lump sum
calculation methodology unlawfully conditioned a
participant’s receipt of a portion of his or her statutory
accrued benefit on the form of the distribution he or

75a
she elected to take (pension at age 65 or immediate
lump sum. Treas. Reg. § 1.411(a)-4.
118.
If Defendants had calculated and paid
lump sum benefits in the manner required under
ERISA and the Tax Code, Plaintiffs and other members of the proposed Class would not have unwittingly
forfeited a portion of their statutory accrued benefits
and accordingly would have received larger distributions than the amounts in fact paid to them.
*

*

*

76a
WHEN BENEFITS ARE PAYABLE
Benefits are payable upon termination of employment
if you are vested. A transfer of employment from one
PricewaterhouseCoopers office worldwide to another
PricewaterhouseCoopers office worldwide is not a termination of employment for which benefits are payable. Additionally, prior to termination of employment,
“non-highly compensated” client-service staff members who are vested may receive all or any portion of
amounts credited to their accounts in any of the Plan
payment methods (for legacy KL and C&L non-highly
compensated client-service staff, amounts credited after June 30, 1999 are available for distribution). This
option is also available to such staff members who
have terminated employment.
PLAN
PAYMENT
TERMINATION
OF
RETIREMENT

METHODS
UPON
EMPLOYMENT
OR

One of the advantages of the plan is its flexibility in
offering various methods of benefit payment. The
value of your account will be determined on the last
business day of the month in which you request a distribution from the plan. However, if you request a distribution during the month that you terminate employment, your account will be valued on the last business day of the next month. If on the day of valuation,
shares are not traded on national stock exchanges,
your benefit will be determined on the preceding day
on which shares are traded. Your distribution will be
made as soon thereafter as practicable.
You may choose the method of benefit payment that
best suits your needs. Payment methods under the
plan are as follows:

77a
Mandatory Lump Sum Payment
Regardless of the payment methods described below,
if the value of your vested account does not exceed
$5,000, a lump sum payment will be made to you.
Your account will be valued on the last day of the second month following the month during which your termination of employment is reported to the plan. Your
distribution will be made as soon thereafter as practicable.
Normal
Payment
Participants

Method

for

Single

The plan’s normal form of payment for a single participant is a single life annuity that is the actuarial
equivalent of your account balance. If you are single
at the time your plan benefits are to begin under this
payment method, your benefit will be paid to you in
equal monthly installments for your life. The last retirement plan payment will be for the month in which
your death occurs.
Normal
Payment
Participants

Method

for

Married

If you are married at the time your plan benefits are
to begin, the normal form of payment is a 50% joint
and survivor annuity that is the actuarial equivalent
of your account balance. Under this form of payment,
your monthly benefit is reduced from what you would
have received under a single life annuity because after
your death, 50% of the benefit that you received continues to be paid to your surviving spouse -- for the
rest of his or her life. Benefit payments are continued
to your surviving spouse only if you were married to
that spouse at the time retirement payments began.

78a
The reduction from a single life annuity is based on
the ages of you and your spouse and reflects the fact
that benefits are payable during both your lifetimes.
If your spouse should die after plan benefit payments
have begun, reduced income will continue to be paid
for your lifetime. If you remarry after the date retirement benefits begin, your new spouse will not be eligible to receive a survivor annuity.
Optional Payment Methods
Regardless of whether you are single or married at the
time plan payments are scheduled to begin, you can
choose one of the following optional payment methods
by filing the appropriate forms with National Benefits
Administration, Tampa-NAC, within the 90-day period before plan benefits begin. If you are single, you
must waive a life annuity in writing. If you are married, both you and your spouse must waive a joint and
survivor annuity in writing. Your spouse’s signature
must be notarized. Elections may be revoked or
changed at any time before benefits begin. Once benefits have begun, you cannot choose a different form
of benefit payment and any election you have made
may not be revoked or changed.
Single Life Annuity –- This payment method is the
same as the normal form of payment for single participants -- i.e., your retirement benefit will be paid in
monthly installments throughout your lifetime but no
benefits are paid to your spouse after your death.
Lump Sum Payment – Under this payment option,
you may receive a lump sum cash payment. The
amount of the lump sum payment shall be equal to
your vested account balance. If you are a legacy C&L

79a
employee and you elect a lump sum payment, the portion of the lump sum that is based on the C&L career
average formula will be equal to the actuarially computed present value of the career average benefit payable at age 65 as a single life annuity. Present value
for this purpose, shall be calculated using the mortality rates specified in the plan and an interest rate
based on the annual rate for 30-year Treasury securities in effect for the month of May preceding the plan
year in which a distribution occurs.
If the value of your benefit is more than $5,000 and
you are less than age 70%, you can elect to defer distribution. If the value of your benefit is $5,000 or less
or if you are age 70%, no deferral election is permitted.
Direct Rollovers
If you elect a lump sum distribution (with your
spouse’s consent, if applicable), you may instruct the
Plan Administrator to make your plan distribution
payable directly to another eligible retirement plan.
Payment may be made to another employer’s retirement plan or an Individual Retirement Account (IRA).
Please see the Special Tax Notice Regarding Plan
Payments at the end of this section for more information regarding the tax consequences of your benefit
distribution.
For legacy C&L employees who have attained age 53
by their termination of employment, besides the payment options described above, the following payment
options that were available under the C&L Retirement Plan will continue to be available if you were
covered by that plan.
100%, 75%, 70%, 66 2/3% and 50% Joint & Survivor Annuity — This form of payment provides you

80a
with a monthly benefit for your life and after your
death, your designated beneficiary receives the
applicable percentage of your benefit for the rest
of his or her life. Your monthly benefit is reduced
from what you would have received under a single
life annuity. Your beneficiary need not be your
spouse. If your beneficiary should die after your
payments have started, your monthly payment
will not increase.
Five, Ten or Fifteen Year Period Certain and Life
Annuity — This form of payment provides you
with a monthly benefit for your life and guarantees plan payments for a certain period of time. If
you die before receiving 60, 120, or 180 monthly
payments, your designated beneficiary will receive the remaining payments for that period.
Your monthly benefit is reduced from what you
would have received under a single life annuity.
Your beneficiary need not be your spouse. You can
select the 180 payments only if such period does
not exceed your life expectancy at the time payments begin.
Level Income Annuity — If you retire early and
elect to have your plan payments begin before age
62, you can choose the level income annuity option. Under this payment method, your monthly
payments are increased before your Social Security benefits begin upon age 62 and decreased (or
possibly reduced to zero) after that. Your combined retirement income from the plan and Social
Security benefits remain nearly level throughout
your retirement.

81a
If you terminate employment with the firm after
age 53 and elect one of the annuity payment options, you will receive the portion of an annuity
payable at age 65 for your C&L career average retirement benefit, as shown in the table below. The
reduction is based on your age and service at the
time payments begin to take into account the fact
payments will be made over a longer period of
time.
Your Age
When
Income
Starts
53
54
55
56
57
58
59
60
61
62
63
64
65

If You Have If You Have 30
Five But Less
or More
Years of
Than 30
Service
Years of
Service
42%
46
50
54
58
62
66
70
76
82
88
94
100

54%
58
62
66
70
76
82
88
94
100
100
100
100

For legacy C&L employees who terminate employment prior to attaining age 53, benefits can be paid as
a qualified joint and survivor annuity, a single life annuity or a lump sum as described above. If paid in
annuity form, the portion of the benefit based on the

82a
C&L career average formula will be reduced based on
a 6% per annum interest rate and the mortality rates
specified in the plan.
*

*

*

83a
INTERNAL REVENUE SERVICE
DISTRICT DIRECTOR
G.P.O. BOX 1680
BROOKLYN, NY 11.202
Date: FEB 9 1996
PRICE WATERHOUSE LLP
C/O ROBERT A NACRON
C/O PRICE WATERHOUSE LLP
1177 AVENUE OF THE AMERICAS RH 303
NEW YORK, MY 10036
Employer Identification Number: 13-5326270
File Folder Number:

133007316

Person to Contact: JOSEPH SCHIANO
Contact Telephone Number:

(203) 840-4100

Plan Name:
RETIREMENT BENE ACCUMULATION PLAN
FOR EMPLYS OF PRICE WATERHOUSE LLP
Plan Number: 195
Dear Applicant:
We have made a favorable determination on your
plan, identified above, based on the information supplied. Please keep this letter in your permanent records.
Continued qualification, of the plan under its present form will depend on its effect in operation. (See
section 1.101-1(b)(3) of the Income Tax Regulations.)
We will review the status of the plan in operation periodically.
The enclosed document explains the significance
of this favorable determination letter, points out some

84a
features that may affect the qualified status of your
employee retirement plan, and provides information
on the reporting requirements for your plan. It also
describes some events that automatically nullify it. It
is very important that you read the publication.
This letter relates only to the status of your plan
under the Internal Revenue Code. It is not a determination regarding the effect of other federal or focal
statutes.
This determination letter is applicable for the
plan adopted on June 23, 1995.
This plan has been mandatorily disaggregated,
permissively aggregated, or restructured to satisfy the
nondiscrimination requirements.
This plan satisfies the nondiscrimination in
amount requirement of section 1.401(a)(4)-1(b)(2) of
the regulations on the basis of a general test described
in the regulations.
This letter is issued under Rev. Proc. 93-39 and
considers the amendments required by the Tax Reform Act of 1986 except as otherwise specified in this
letter.
This plan satisfies the nondiscriminatory current
availability requirements of section 1.401(a)(4)-9(b) of
the regulations with respect to those benefits, rights,
and features that are currently available to all employees in the plan’s coverage group. For this purpose,
the plan’s coverage Group Consists of those employees
treated as currently benefiting for purposes of demonstrating that the plan satisfies the minimum coverage
requirements of Section 410(b) of the Code.

85a
This plan also satisfies the requirements of section 1.401(a)(4)-9(b) of ‘the regulations with respect to
the specific benefits, rights, or features for which you
have provided information.
This letter may not be relied upon with respect to
whether the plan satisfies the qualification requirements as. amended by the Uruguay Round Agreements Acts Pub. L. 103-465.
We have sent a copy of this letter to your representative as indicated in the power of attorney.
If you have questions concerning this matters
please contact the person whose name and telephone
number are shown above.
Sincerely yours,

/s/ Herbert J. Huff
Herbert J. Huff
District Director
Enclosures:
Publication 794

86a
INTERNAL REVENUE SERVICE
P. O. BOX 2508
CINCINNATI, OH 45201
Date: MAR 22 2004
PRICEWATERHOUSECOOPERS LLP
1301 AVENUE OF THE AMERICAS
NEW YORK, NY 10019-6013
Employer Identification Number: 13-4008324
DLN:

17007178010032

Person to Contact: JUANITA M PRERICH
Contact Telephone Number:

(877) 829-5500

Plan Name:
RETIREMENT BENEFIT ACCUMULATION
PLAN FOR PWC LLP
Plan Number: 002
Dear Applicant:
We have made a favorable determination on the
plan identified above based on the information you
have supplied. Please keep this letter, the application
forms submitted to request this letter and all correspondence, with the Internal Revenue Service regarding your application for a determination letter in your
permanent records. You must retain this information
to preserve your reliance on this letter.
Continued qualification of the plan under its present form will depend’ on its effect in operation. See
section 1.401-1(b)(3) of the Income Tax Regulations.
We will review the status of the plan in operation periodically.

87a
The enclosed Publication 794 explains the significance and the scope of this favorable determination
letter based on the determination requests selected on
your application forms. Publication 794 describes the
information that must be retained to have reliance on
this favorable determination letter. The publication
also provide examples of the effect of a plan’s operation on . its qualified status and discusses the reporting requirements for qualified plans. Please read
Publication 794.
This letter relates only to the status of your plan
under the Internal Revenue Code. It is not a determination regarding the effect of other federal or local
statutes.
This determination is subject to your adoption of
the proposed amendments submitted in your letter
dated February 27, 2004. The proposed amendments
should be adopted on or before the date prescribed by
the regulations under :ode section 401(b).
This determination letter is applicable for the
amendment(s) executed al May 21, 2002.
Issues arising from the amendment of a defined
benefit plan’s benefit formula to convert that formula
into a cash balance type benefit formula are under
study, and this determination letter does not express
an opinion on any of these issues. A cash balance type
formula generally defines a benefit for each employee
by reference to a single-sum amount, such as 10 percent of final average pay times years of service, or the
amount of the employee’s hypothetical account balance.

88a
This letter considers the changes in qualification
requirements made by the Uruguay Round Agreements Act, Pub. L. 103-465; the Small Business Job
Protection Act of 1996, Pub. L. 104-188, the Uniformed Services Employment and Reemployment
Rights Act of 1994, Pub. L. 103-353, the Taxpayer Relief Act of 1997, Pub. L. 105-34, the Internal Revenue
Service Restructuring and Reform Act of 1998, Pub. L.
105-206, and the Community Renewal Tax Relief Act
of 2000, Pub. L. 106-554.
This letter may not be relied on with respect to
whether the plan satisfies the requirements of section
491(a) of the Code, as amended by the Economic
Growth and Tax Relief Reconciliation Act of 2001,
Pub. L. 107-16.
The requirement for employee benefits plans to
file summary plan descriptions (SPD), with the U.S.
Department of Labor was eliminated effective August
5, 1997. For more details, call 1-808-998-7542 for a
free copy of the SPD card.
If you have questions concerning this matter,
please contact the person whose name and telephone
number are shown above.
Sincerely yours,
/s/ Paul T. Shultz
Paul T. Shultz
Director,
Employee Plans Rulings & Agreements
Enclosures:
Publication 794

89a
ARTICLE 5
RETIREMENT BENEFITS
5.1 Normal Retirement Benefit. A Participant’s
Normal Retirement Benefit shall be an amount equal
to the Actuarial Equivalent (calculated by projecting
the Deemed Account Balance to Normal Retirement
Age using the Deemed Plan Interest Rate) of his or
her Deemed Account Balance.
(a) Eligibility for Normal Retirement Benefit.
A Participant shall be eligible for Normal Retirement
Benefit upon termination of employment from the
Employer, or in the case of a Participant who is a Partner, Principal, Limited Equity Partner or Limited Equity Principal when he ceases to be active, with a nonforfeitable right to his or her Accrued Benefit, as determined under Article 6 of the Plan. For purposes of
this Plan, a Participant who is a Partner, Principal,
Limited Equity Partner or Limited Equity Principal
ceases to be active when he ceases to perform significant services for the Employer as a Partner, Principal,
Limited Equity Partner or Limited Equity Principal
under the Agreement or Restated Agreement described in Section 2.21 of the Plan (without regard to
such individual’s status under the income tax laws).
Effective for Participants who attain age 70½ after December 31, 1998, the Normal Retirement Benefit that is paid upon a Participant’s termination of employment, or in the case of a Participant who is a Partner, Principal, Limited Equity Partner or Limited Equity Principal after he ceases to be active, after the
Participant attains age 70 ½ shall be the Actuarial
Equivalent of the Normal Retirement Benefit that
would have been paid to the Participant at age 70½

90a
had he then terminated employment ceased to be active. For purposes of this Section, an Actuarial Equivalent shall be the product of (1) the Normal Retirement Benefit at age 70½, (2) Deemed Investment Experience, and (3) a fraction, the numerator of which is
the value of a life annuity of $1 commencing on April
1 following the calendar year in which the Participant
attains age 70½, and the denominator of which is the
value of such a life commencing on the Valuation Date
for the Participant’s request for a distribution upon
his termination of employment.
On or after July 1, 1997 and prior to July 1, 1998,
a transfer, leave of absence, appointment, secundment, or any other arrangement with the same result,
from any PWF Firm to another PW Firm shall not be
considered a termination of employment from the Employer, or in the case of a Partner or Principal or Limited Equity Partner or Limited Equity Principal ceasing to be active. Effective July 1, 1998, a transfer,
leave of absence, appointment, secundment, or any
other arrangement with the same result, from any
Member Firm, Network Firm or Relevant Entity of
the PricewaterhouseCoopers Global Network to another Member Firm, Network Firm or Relevant Entity
of the PricewaterhouseCoopers Global Network shall
neither be considered a termination of employment
from the Employer, not be considered ceasing to be active.
(b) Payment of Normal Retirement Benefit.
Subject to Section 5.3, a Participant’s Normal Retirement Benefit shall be paid in monthly payment equal
to one twelfth (1/12th) of the annual Normal Retirement Benefit. Effective for Participants who attain

91a
age 70 ½ after December 31, 1998 and prior to January 1, 2002, a Participant’s Normal Retirement Benefit shall commence to be paid not later than the first
day of April of the calendar year following the later of
the calendar year during which the Participant attains age 70½ or the Participant terminated employment or in the case of a Participant who is a Partner,
Principal, Limited Equity Partner or Limited Equity
Principal he ceases to be active. For Participants who
attain age 70½ after December 31, 2001, the Participant’s Normal Retirement Benefit must be distributed, or distribution must commence, no later than
April 1 of the calendar year following the calendar
year in which the Participant attains age 70½ even
though the Participant may still be employed by the
Employer or not ceased to be active, and such distribution shall be increased each following December 31
to take into account the Participant’s Accrued Benefit
not distributed as of such December 31.
5.2 Payment of Benefits. Prior to July 1, 1999, for
purposes of a distribution under the Plan, the value of
a Participant’s Benefit shall be its value as of the Valuation Date occurring on the 20th day of the second
following calendar month after the calendar month
during which a Participant provides the Plan Administrator with a request for a distribution of his or her
Benefit (or in the case where a Participant’s Benefit
does not exceed $5,000 ($3,500 prior to July 1, 1998)
during which termination of a Participant’s employment occurs, or a Participant who is a Partner, Principal, Limited Equity Partner or Limited Equity Principal ceases to be active), unless the 20th day of the
second following calendar month is a day on which
shares are not traded on a national stock exchange, in

92a
which case it shall be the Valuation Date occurring on
the first day before the 20th day on which shares are
traded on a national stock exchange. Effective on and
after July 1, 1999, for purposes of a distribution under
the Plan of: (1) a Benefit in value as of the Valuation
Date occurring on the last business day of the Calendar month during which the Participant provides the
Plan Administrator with a request for a distribution
of his or her Benefit if the request us received by the
Plan Administrator by the twentieth (20th) day of
such month; provided, however, that a request for a
distribution which is provided to the Plan Administrator during the same calendar month in which a Participant’s termination of employment occurs (or in
which a Partner, Principal, Limited Equity Partner,
or Limited Equity Principal ceases to be active) shall
result in such Participant’s Benefit being valued on
the Valuation Date occurring on the last business day
of the next calendar month if the request is received
by the Plan Administrator by the twentieth (20th) day
of the month in which the Participant’s termination of
employment occurs (or in which a Partner, Principal,
Limited Equity Partner, or Limited Equity Principal
ceases to be active); and (2) a Benefit that is $5,000 or
less, the value of a Participant’s Benefit shall be its
value as of the Valuation Date occurring on the last
business day of the second calendar month following
the calendar month in which a Participant’s termination of employment occurs (or in which a Partner,
Principal, Limited Equity Partner, or Limited Equity
Principal ceases to be active). If the last business day
of any calendar month is a day on which shares are
not traded on a national stock exchange, the Valuation Date shall be the first day on which shares are
traded on a national stock exchange before the last

93a
business day. A Participant’s Benefit shall be paid as
soon as practicable following its Valuation Date. Any
Deemed Payroll Period Allocation made to the Participant’s Deemed Account Balance subsequent to the initial distribution, shall be distributed as soon as practicable following the date of such Deemed Payroll Allocation. All distributions hereunder shall be made in
a consistent and uniform manner with regard to timeliness of distribution. Notwithstanding any other provision of the Plant to the contrary, a Participant’s request for a distribution will be valued as of the Valuation Date occurring on the next business day following receipt of the request for the distribution when
such request is made to comply with an independence
standard imposed by any international, federal or
state regulatory agency or professional association.
5.3 Qualified Joint and Survivor Annuity.
(a) A married Participant’s Benefit shall be
paid in the form of a Qualified Joint and Survivor Annuity unless the Participant elects an optional form of
Benefit pursuant to a Qualified Election, as defined in
Subsection (b), not earlier than ninety (90) days or less
than thirty (30) days before the date that Benefit payments would commence.
(b) A Qualified Election is an election of an
optional form of Benefit by a married Participant to
which his or her Spouse consents in a writing witnessed by a Plan representative or a notary public. A
Qualified Election constitutes a waiver of the Qualified Joint and Survivor Annuity. A Participant may
make a Qualified Election not to have his or her Benefit paid in the form of a Qualified Joint and Survivor
Annuity and may elect an alternative form of payment

94a
not earlier than ninety (90) days or less than thirty
(30) days before the date on which Benefits are scheduled to commence. The Benefit commencement date
for a distribution in a form other than a Qualified
Joint and Survivor Annuity may be less than thirty
(30) days after receipt of the written explanation described in Section 5.3(c) provided: (a) the Participant
has been provided With information that clearly indicates that the Participant has at least thirty (30) days
to consider whether to waive the Qualified Joint and
Survivor Annuity and to elect (with Spousal Consent)
a form of distribution other than a Qualified Joint and
Survivor Annuity; (b) the Participant is permitted to
revoke any affirmative distribution election at least
until the Benefit commencement date or, if later, at
any time prior to the expiration of the seven day period that begins the day after the explanation of the
Qualified Joint and Survivor Annuity is provided to
the Participant; and (c) the Benefit commencement
date is a date after the date that the written explanation was provided to the Participant. In order to be
effective, any such election to have Benefits paid in a
form other than a Qualified Joint and Survivor Annuity shall be consented to by the Spouse (or the Spouse’s
legal guardian if the Spouse is legally incompetent) in
writing whereby the Spouse:
(1) consents not to receive the Qualified
Joint and Survivor Annuity; and
(2) consents to the specific optional form
elected by the Participant.
The instrument shall contain the signed acknowledgment by such Spouse of the effect of such election.

95a
Spousal consent to such election shall not be required if the Participant establishes to the satisfaction of a Plan representative that such written consent may not be obtained because: there is no Spouse;
(1) there is no Spouse;
(2) the Spouse cannot be located;
(3) the Participant furnishes a court order to the Administrative Committee establishing
that the Participant is legally separated or has been
abandoned (within the meaning of local law), unless a
qualified domestic relations order pertaining to such
Participant provides that the Spouse’s consent must
be Obtained; and
(4) there exist such other circumstances
as the Secretary of the Treasury may by regulations
prescribe.
Any consent necessary under this provision shall
be valid only With respect to the Spouse who signed
such consent (or the designated Spouse in the event
that it is established that the consent of the Spouse
may not be obtained) and such consent shall be irrevocable. A Participant may revoke any prior election
without the consent of his or her Spouse at any time
prior to the commencement of benefits, in which case
benefits shall be paid in the form of a Qualified Joint
and Survivor Annuity, unless an alternative election
is duly made with the appropriate Spousal consent.
(c) The Administrative Committee shall provide to each Participant within a reasonable period
prior to the commencement of benefits a written explanation of:

96a
(1) the terms and conditions of the Qualified Joint and Survivor Annuity;
(2) the Participant’s right to make, and
the effect of, an election to waive the Qualified Joint
and Survivor Annuity form of benefit;
(3) the rights of a Participant’s Spouse;
and
(4) the right to make, and the effect of, a
revocation of a previous election to waive the Qualified Joint and Survivor annuity.
5.4 Optional Forms. In lieu of the form of Benefit
set forth in Sections 5.1 or 5.3, the Participant may
elect, subject to the rules of Subsection 5.3(b), if applicable, one of the following forms of Benefit.
(a) Specified Distribution. Upon attainment
of Normal Retirement Age, a Participant who is (i) a
Partner or Principal, or (ii) a Non-Highly Compensated client-service Employee may receive a distribution of all or any portion of his or her Accrued Benefit
in any form available under the Plan. This form of
distribution shall not be available to a Highly Compensated client-service Employee or any practice-support Employee. This form of distribution shall not be
available to any Participant who was a participant in
the Coopers & Lybrand Retirement Plan or the
Kwasha Lipton Retirement Plan prior to July 1, 1999.
(b) Lump Sum Payment. A single lump sum
cash payment to the Participant upon his or her termination of employment, or in the case of a Participant who is a Partner, Principal, Limited Equity Partner or Limited Equity Principal when he ceases to be
active, or upon the Participant’s death to his or her

97a
Beneficiary. This is the only form of distribution
available to a Beneficiary who is not the Participant’s
Spouse. The amount of any lump sum payment to a
Participant or Beneficiary shall not be less than the
Actuarial Equivalent of the Participant’s Normal Retirement Benefit. A Participant who is required to
cease receiving his Benefit in any form permitted under the Plan in order to comply with an independence
standard imposed by any international, federal or
state regulatory agency or professional association
may receive a single lump sum payment that is not
less than the Actuarial Equivalent of the undistributed portion of the Participant’s Normal Retirement
Benefit.
(c) Single Life Annuity. An annuity with
equal monthly installments payable to the Participant
for his or her lifetime. This is the automatic form of
Benefit for a single Participant, unless such Participant elects another form. The amount of the annuity
is the Actuarial Equivalent of the Participant’s
Deemed Account Balance.
5.5 Method of Payment of Benefit. The Administrative Committee, in its sole discretion, may provide
for the payment of Benefits under this-Article by the
Trustee, through the purchase of annuity contracts
from an insurer, or through direct cash payments
from the Trust to the Participant or Beneficiary. Any
annuity contract purchased from an insurer which is
distributed to a Participant or Beneficiary must be
nontransferable in the hands of the Participant or
Beneficiary. Neither the Administrative Committee,
Employer or the Trustee, nor their successors, shall
be responsible for the failure on the part of the insurer

98a
to make payments provided by any such annuity contract, which is distributed to a Participant or Beneficiary.
*

*

*

99a
INTERNAL REVENUE SERVICE
EMPLOYEE PLANS
TECHNICAL ADVICE MEMORANDUM
Taxpayer’s Name:

PricewaterhouseCoopers
LLP

Taxpayer’s Name:

PricewaterhouseCoopers
LLP

Taxpayer’s Address:

3109 W. Dr. Martin Luther King Jr. Blvd.
Tampa, FL 33607

Plan:

Retirement Benefit Accumulation Plan for Employees of PricewaterhouseCoopers LLP

Taxpayer’s EIN:

13-4008324

Years Involved:

PYE June 30, 2003 forward

Date of Conference:

September 11, 2012

Issues:
1. Whether the Plan’s definition of the Accrued Benefit causes the Plan to fail any of the requirements
of sections 411 and 417(e)(3) of the Internal Revenue Code (the “Code”).
2. If the Plan fails to satisfy one or more of the above
requirements, whether the retroactive disqualification of the Plan should be limited by the application of section 7805(b) of the Code.

100a
Facts:
Price Waterhouse LLP (“PW”) and Coopers & Lybrand
LLP (“C&L”) combined, effective July 1, 1998, to form
PricewaterhouseCoopers LLP (“PwC”).
Prior to the formation of PwC, C&L maintained the
Coopers & Lybrand Retirement Plan (“C&L Plan”), a
career average pay plan, originally effective June 1,
1954. On April 15, 1996, the Service issued C&L a
favorable determination letter that considered the
amendments made to the C&L Plan as required by the
Tax Reform Act of 1986 and related legislation.
Prior to the formation of PwC, PW maintained the Retirement Benefit Accumulation Plan for Employees of
Price Waterhouse, LLP (“PW Plan”), a cash balance
plan, which was originally effective July 1, 1994. On
February 9, 1996, the IRS issued PW a favorable determination letter that considered the amendments
made to the PW Plan as required by the Tax Reform
Act of 1986 and related legislation. The 1996 determination letter covered the PW Plan’s cash balance
provisions.
Both the C&L Plan and the PW Plan were assumed,
effective July 1, 1998, by PwC, and the PW Plan was
renamed the Plan. Effective July 1, 1998, the C&L
1
Plan was converted into a cash balance plan. Effective July 1, 1999, the Plan was merged into the C&L
Plan and the C&L Plan was renamed the Plan.
On March 22, 2004, the IRS issued PwC a favorable
determination letter that considered the amendments
1

This TAM does not consider the cash balance provisions of
the C&L Plan, which are found in Appendix B of the Plan.

101a
made to the Plan as required by the Uruguay Round
Agreements Act and related legislation (“GUST”).
The determination letter contained a caveat relating
to issues arising from the Plan’s conversion into a cash
balance plan.
The Service commenced an examination of the Plan
beginning with Plan year ending June 30, 2003. On
May 19, 2009, EP Examinations requested technical
advice on Issues (1) and (2) above.
This TAM considers only whether the Plan’s definition of the Accrued Benefit causes the Plan to fail to
satisfy 411 and 417(e) as discussed below. This TAM
does not consider the provisions applicable to C&L
Participants as provided in Appendix B of the Plan,
the amendments made to the Plan effective May 22,
2007, or any other issues not specifically addressed in
this TAM.
Plan Provisions:
Section 2.1 of the Plan defines the Accrued Benefit as
of any date to mean the Participant’s Deemed Account
Balance credited to that date.
Section 2.2 of the Plan defines Actuarial Equivalent
as a benefit having the same present value as the benefit which it replaces using the Deemed Plan Interest
Rate that is applicable for the plan year with respect
to which such determination is made and the mortality table under section 417(e) of the Code.
Section 2.13 of the Plan defines the Deemed Account
Balance as the Participant’s Deemed Payroll Period
Allocations to date, as increased or decreased to reflect his or her Deemed Investment Experience.

102a
Section 2.14 of the Plan defines Deemed Investment
Experience as an increase or decrease in a Participant’s Deemed Account Balance in accordance with
his or her investment experience election from among
the choices prescribed by the Administrative Committee. This section further provides that each Participant’s Deemed Account Balance shall be adjusted to
reflect his or her Deemed Investment Experience in
the same manner as if the Deemed Account Balance
were actually invested pursuant to the Participant’s
investment experience election and as if each Deemed
Payroll Period Allocation were actually an allocation
made to an account for the Participant.
Section 2.15 of the Plan provides a Deemed Payroll
Period Allocation that is defined as an annual, flat pay
credit equal to the “Share Ratio,” the “Unadjusted Allocation,” or 5, 7, or 10 percent of compensation, depending on the Participant’s classification (e.g., Director, Partner, Principal, or other Employee).
Section 2.16 of the Plan defines Deemed Plan Interest
Rate as the annual rate of interest for an annuity commencement date in a plan year equal to the interest
rate on 30-year Treasury securities for the month of
May immediately preceding such plan year. Section
2.16 provides that effective July 1, 2001, and plan
years thereafter, the annual rate of interest for an annuity commencement date in a plan year is equal to
the interest rate on 30-year Treasury Securities for
the month of February immediately preceding such
plan year. However, only for the plan year commencing July 1, 2001, the Deemed Plan Interest Rate shall
be equal to the rate specified for February 2001 or
May 2001, whichever produces the largest benefit.

103a
Section 2.32 of the Plan defines Normal Retirement
Age as the earlier of the date a Participant attains age
65 or completes five (5) Years of Service.
Section 2.33 of the Plan defines the Normal Retirement Benefit to mean a single life annuity payable at
the later of the participant’s attained age or Normal
Retirement Age, as set forth in Article 5 of the Plan.
Section 5.1 of the Plan defines the Normal Retirement
Benefit as an amount equal to the Actuarial Equivalent (calculated by projecting the Deemed Account
Balance to Normal Retirement Age using the Deemed
Plan Interest Rate) of his or her Deemed Account Balance.
Section 5.4(b) of the Plan provides that a lump sum
payment is a cash payment payable on termination of
employment and that the amount of any lump sum
payment shall not be less than the Actuarial Equivalent of the Normal Retirement Benefit.
Section 5.4(c) of the Plan provides that the automatic
form of benefit for a single participant is a monthly
annuity that is an amount equal to the Actuarial
Equivalent of the Participant’s Deemed Account Balance.
Section 6.1 of the Plan provides that a Participant who
is employed on attainment of Normal Retirement Age
or death shall be fully vested in his or her Accrued
Benefit. This section further provides that if a Participant terminates employment, the Participant is
vested after completing 5 years of service.
In 2008, the Plan was amended as follows:
• To freeze accruals under the Plan effective
July 1, 2008;

104a
• To provide the cessation of Deemed Payroll Period Allocations after June 30, 2008;
• To define Normal Retirement Age as age 62,
2
effective May 22, 2007; and
• To provide that, for distributions after August 17, 2006, the amount of a lump sum payment is equal to the amount of the Deemed Account Balance. The language for distributions
prior to this date was retained. See Section
5.4(b) of the Plan.
PW Plan Provisions/Original Plan Document:
The PW Plan’s provisions are the same as those set
forth above, except that Section 5.1 of the PW Plan
states that a Participant’s Normal Retirement Benefit
shall be an amount equal to the Actuarial Equivalent
of his or her Deemed Account Balance.

2

Section 2.29 of the 2008 Plan Restatement defines Normal
Retirement Age for periods after May 21, 2007, to mean age 62
subject to the following stipulations: that age 62 is Normal Retirement Age under the Plan only for the purpose of falling
within the safe harbor of the regulations; it should not be construed as reasonably representative of the typical retirement age
in the industry; it shall become null and void ab initio and confer
no right, benefit or privilege on any participant or beneficiary if
Congress or any agency or court determines that it is inconsistent with or unnecessary to comply with the Code or ERISA;
and it does not apply to C&L participants under Appendix B of
the Plan. As indicated above, this TAM accepts age 62 as the
Normal Retirement Age and defers issues relating to the above
stipulations to the pending determination letter process.

105a
Law and Analysis:
Issue (1) — Accrued Benefit and Lump Sum
Distributions
Section 411(a) of the Code states that a qualified plan
must provide that an employee’s right to his normal
retirement benefit is nonforfeitable upon attainment
of normal retirement age and that an employee’s right
to his accrued benefit is nonforfeitable upon completion of the specified number of years of service under
one of the vesting schedules set forth in section
411(a)(2).
Section 411(a)(7)(A)(i) of the Code defines a participant’s accrued benefit under a defined benefit plan to
mean the employee’s accrued benefit determined under the plan, expressed in the form of an annual benefit commencing at normal retirement age.
Section 411(c)(3) of the Code states that if the accrued
benefit is to be determined as an amount other than
an annual benefit commencing at normal retirement
age, then the accrued benefit shall be the actuarial
equivalent of such benefit.
Section 1.411(a)-7(a)(1)(i) of the federal Income Tax
Regulations (“Regulations”) defines the accrued benefit under a defined benefit plan for purposes of section
411 of the Code as an annual benefit commencing at
normal retirement age, if the plan provides an accrued
benefit in that form. Section 1.411(a)-7(a)(1)(ii) states
that if a plan does not provide an accrued benefit in
that form, the accrued benefit is an annual benefit
commencing at normal retirement age which is the actuarial equivalent of the plan’s accrued benefit.

106a
Section 411(b)(1) of the Code provides that a defined
benefit plan must satisfy either the 3% method, the
133 1/3% method, or the fractional method with respect to benefits accruing under the plan. A cash balance plan generally cannot satisfy either the 3% rule
or the fractional rule, and so it must satisfy the 133
1/3% rule. Section 411(b)(1)(B) provides that a defined benefit plan satisfies the requirements of the
133 1/3% rule for a particular plan year if, under the
plan, the accrued benefit payable at the normal retirement age is equal to the normal retirement benefit,
and the annual rate at which any individual who is or
could be a participant can accrue the retirement benefits payable at normal retirement age under the plan
for any later plan year is not more than 133 1/3 % of
the annual rate at which he can accrue benefits for
any plan year beginning on or after such particular
plan year and before such later plan year.
Section 417(e)(3) of the Code provides that a lump sum
payment under a qualified plan may not be less than
the present value of the participant’s accrued benefit
calculated using the applicable mortality table and
the applicable interest rate. For this purpose, prior to
the enactment of the Pension Protection Act of 2006
(“PPA”), the applicable interest rate is the annual rate
of interest on 30-year Treasury securities for the
month before the date of distribution or such other
time as the Secretary may prescribe. Section 1.417(e)1(d)(4) of the Regulations requires a plan to designate
the lookback month that is used for determining the
applicable interest rate.
Effective for lump sum distributions with initial annuity starting dates on or after August 17, 2006, the
effective date of the PPA, permits certain cash balance

107a
plans to provide that the present value of the accrued
benefit is equal to the account balance regardless of
the interest crediting rate (thus, allowing lump sum
payments to be equal to the account balance if the only
benefit is the cash balance benefit).
Notice 96-8, 1996-1 C.B. 359 (“Notice 96-8”), stated
that benefits attributable to interest credits under a
cash balance the plan are in the nature of accrued benefits within the meaning of section 1.411(a)-7(a) of the
Regulations, and thus, once accrued, must become
nonforfeitable in accordance with a vesting schedule
that satisfies section 411(a) of the Code. Notice 96-8
further stated that in order for a plan’s interest credits to satisfy the accrual rules of section 411(b)(1), the
interest must be frontloaded. In order for interest to
be frontloaded, the benefits attributable to future interest credits with respect to a hypothetical allocation
must accrue at the same time as the benefits attributable to the hypothetical allocation. Thus, in determining the accrued benefit of a participant under a cash
balance plan any time prior to NRA, the balance in the
cash balance account must be projected with interest
credits to NRA.
Notice 96-8 further provides that in order for a defined
benefit plan to satisfy section 417(e) of the Code, any
single sum distribution must not be less than the nonforfeitable portion of the present value of the employee’s accrued benefit under section 411(a)(7), determined using the applicable interest rate and mortality
table under section 417(e). Part IV of Notice 96-8 explains that a plan that credits accounts at one of the
variable interest rates described therein would be permitted to distribute a lump sum equal to the current
account balance because those rates are deemed to be

108a
no greater than the applicable interest rate of section
417(e)(3).
Accrued Benefit
In general, for purposes of section 411 of the Code, the
accrued benefit must be determined as an annual benefit commencing at normal retirement age. In order
to satisfy the accrual rules of section 411(b)(1)(A)-(C),
the interest credits must be frontloaded within the
meaning of Notice 96-8. Furthermore, even if the interest credits are frontloaded, the determination of
the accrued benefit under the plan can result in either
a forfeiture, which is not permitted under section
411(a), or a failure to satisfy the accrual rules of section 411(b)(1)(A)-(C), unless the projected interest
crediting rate used to determine the accrued benefit is
the same interest rate used to provide interest credits
to the cash balance account.
In this case, the Plan provided flat pay credits that
would satisfy the 133 1/3 percent accrual rule. However, the Plan fails to define the Accrued Benefit to
mean, as of any date, a life annuity payable at Normal
Retirement Age that is equal to the Actuarial Equivalent of the Deemed Account Balance projected to Normal Retirement Age using the interest crediting rate,
which is the Deemed Investment Experience. Rather,
Sections 2.1 and 5.1 of the Plan define the Accrued
Benefit and Normal Retirement Benefit, respectively,
in a manner that credits the accounts using one interest rate structure and projects them to Normal Retirement Age using another. This discrepancy in the
rates for crediting and projecting the accounts can result in failure to satisfy the anti-forfeiture require-

109a
ments of section 411(a) of the Code or the 133 1/3 percent accrual rule under section 411(b)(1)(B), depending on whether the interest crediting rate is higher or
lower than the rate for projecting the accounts.
Lump Sum Payments
Notice 96-8 provides that in order for a defined benefit
plan to satisfy section 417(e) of the Code, a distribution must not be less than the present value of the accrued benefit, determined in a manner that satisfies
sections 411(a)(7) and 417(e). Section 5.4(b) of the
Plan provides for a lump sum distribution that is
equal to an amount “no less than” the Actuarial
Equivalent of the Participant’s Normal Retirement
Benefit. As discussed above, the Plan’s definition of
the Accrued Benefit fails to satisfy section 411. Although the lump sum distribution provision satisfies
section 417(e) in form, given the flawed definition of
the Accrued Benefit, the Plan fails to satisfy section
417(e) requirements in operation with respect to lump
sum distributions with initial annuity starting dates
prior to August 17, 2006. Effective August 17, 2006,
the Plan was amended to provide a lump sum distribution equal to the Deemed Account Balance, as permitted under PPA.
To address the above failures in prior years, the Taxpayer has requested 7805(b) relief, which is discussed
below.
Issue (2) — Relief Under Section 7805(b):
Section 7805(b)(8) of the Code provides that the Secretary may prescribe the extent, if any, to which any
ruling (including any judicial decision or any admin-

110a
istrative determination other than by regulation) relating to the internal revenue laws shall be applied
without retroactive effect.
Section 18 of Revenue Procedure 2014-5, 2014-1 I.R.B.
169, provides that, except when stated otherwise, a
holding in a technical advice memorandum (“TAM”) is
applied retroactively, unless the Commissioner, Tax
Exempt and Government Entities Division exercises
discretionary authority under section 7805(b) of the
Code to limit the retroactive effect of the holding.
Generally, a TAM that modifies or revokes a letter ruling or another TAM or a determination letter is not
applied retroactively either to the taxpayer to whom
or for whom the letter ruling or TAM or determination
letter was originally issued, or to a taxpayer whose tax
liability was directly involved in such letter ruling or
TAM or determination letter if: (1) there has been no
misstatement or omission of material facts; (2) the
facts at the time of the transaction are not materially
different from the facts on which the letter ruling or
TAM or determination letter was based; (3) there has
been no change in the applicable law; (4) in the case of
a letter ruling or determination letter, it was originally issued on a prospective or proposed transaction;
and (5) the taxpayer directly involved in the letter ruling or TAM or determination letter acted in good faith
in relying on the letter ruling or TAM or determination letter, and the retroactive modification or revocation would be to the taxpayer’s detriment.
The Taxpayer has a favorable determination letter
dated February 9, 1996, which covers the predecessor
provisions of the PW Plan. The Accrued Benefit under
the PW Plan was defined to mean the Account Balance, and the Normal Retirement Benefit to mean the

111a
Actuarial Equivalent of the Account Balance. The PW
Plan credited interest at the Deemed Investment Experience, the equity rates of return, and the Deemed
Plan Interest Rate, the 30-year Treasury rate was embedded in the definition of Actuarial Equivalence.
Thus, the PW Plan contained provisions resulting in
a mismatch between the interest crediting rate and
the interest rate used to project the accounts to normal retirement age.
The Plan continued the PW Plan’s provisions by defining the Accrued Benefit to mean the Account Balance and defining the Normal Retirement Benefit to
mean the Account Balance projected to normal retirement age using the 30-year Treasury rate. This Plan
language is consistent with, although more explicit
than, the language in the PW Plan, which was covered
by the February 9, 1996, favorable determination letter. The lump sum distribution provision in the PW
Plan was also covered by the 1996 determination letter, and this provision was continued under the Plan.
The Plan received a favorable determination letter on
March 22, 2004, which contained a caveat for issues
pertaining to the cash balance conversion. Given that
the Plan had already converted to a cash balance plan
on July 1, 1994, and such conversion was covered by
the prior favorable determination letter, the caveat in
the March 22, 2004, determination letter does not invalidate the prior letter.
On May 22, 2007, the final normal retirement age regulations were issued and the Taxpayer amended the
Plan to define Normal Retirement Age as age 62. The
Service had previously approved the methodology for
determining the Accrued Benefit, which methodology
applied regardless of the Plan’s definition of Normal

112a
Retirement Age. Thus, there was no change in the
applicable law relating to the cash balance terms of
the Plan. Retroactive application of the conclusions
reached in this memorandum would be detrimental to
the Plan, the Plan sponsor and the Plan Participants.
For these reasons, with respect to the failures under
section 411 of the Code, the Taxpayer is entitled to relief under section 7805(b) beginning with PYE June
30, 2003, through 30 days after the issuance of this
TAM. After 30 days from the date this TAM is issued,
the Plan’s continued qualification will depend on the
Taxpayer amending the Plan to define the Accrued
Benefit, and the Normal Retirement Benefit, for all
purposes other than calculating the amount of a lump
sum distribution or testing the Plan’s benefit formula
for age discrimination, to mean, as of any date on or
before age 62 (i.e., Normal Retirement Age, exclusive
of any caveats as currently provided in the Plan), a
single life annuity commencing at age 62 in an
amount equal to the Actuarial Equivalent of the Participant’s Deemed Account Balance as of such date
projected to age 62 using the interest crediting rate
(i.e., each Participant’s current Deemed Investment
Experience) as of such date.
With respect to the failure under section 417(e) of the
Code, the Taxpayer is entitled to relief under section
7805(b) beginning with PYE June 30, 2003, through
August 17, 2006, the effective date of the PPA. The
Plan’s lump sum provision satisfies section 417(e) requirements after such date.

113a
Conclusions:
Issue (1):
For the reasons discussed above, the Plan’s definition
of the Accrued Benefit causes the Plan to fail to satisfy
the requirements of sections 411 and 417(e) of the
Code.
Issue (2):
With respect to the above failures under section 411
of the Code, relief under section 7805(b) is granted beginning with PYE June 30, 2003, through 30 days af3
ter the issuance of this TAM. Qualification beyond
the date that is 30 days after issuance of this TAM is
dependent on the Taxpayer adopting on a timely basis
Plan amendments that are described under Issue (2)
above and conform to the requirements discussed in
4
this TAM. With respect to the failure under section
417(e) of the Code, relief under section 7805(b) is
granted beginning with PYE June 30, 2003, through
August 17, 2006, the effective date of the PPA.

3

However, the relief provided under Code section 7805(b) does
not apply for purposes of Title I of ERISA.
4

Qualification beyond the date that is 30 days after issuance
of this TAM is dependent on the Taxpayer adopting timely and
acceptable amendments.

